<html>
<title> - FLOOD MAP MODERNIZATION AND THE FUTURE OF THE NATIONAL FLOOD INSURANCE PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                 FLOOD MAP MODERNIZATION AND THE FUTURE

                OF THE NATIONAL FLOOD INSURANCE PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2005

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 109-44


                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
26-042 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
RICHARD H. BAKER, Louisiana          PAUL E. KANJORSKI, Pennsylvania
DEBORAH PRYCE, Ohio                  MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
PETER T. KING, New York              NYDIA M. VELAZQUEZ, New York
EDWARD R. ROYCE, California          MELVIN L. WATT, North Carolina
FRANK D. LUCAS, Oklahoma             GARY L. ACKERMAN, New York
ROBERT W. NEY, Ohio                  DARLENE HOOLEY, Oregon
SUE W. KELLY, New York, Vice Chair   JULIA CARSON, Indiana
RON PAUL, Texas                      BRAD SHERMAN, California
PAUL E. GILLMOR, Ohio                GREGORY W. MEEKS, New York
JIM RYUN, Kansas                     BARBARA LEE, California
STEVEN C. LaTOURETTE, Ohio           DENNIS MOORE, Kansas
DONALD A. MANZULLO, Illinois         MICHAEL E. CAPUANO, Massachusetts
WALTER B. JONES, Jr., North          HAROLD E. FORD, Jr., Tennessee
    Carolina                         RUBEN HINOJOSA, Texas
JUDY BIGGERT, Illinois               JOSEPH CROWLEY, New York
CHRISTOPHER SHAYS, Connecticut       WM. LACY CLAY, Missouri
VITO FOSSELLA, New York              STEVE ISRAEL, New York
GARY G. MILLER, California           CAROLYN McCARTHY, New York
PATRICK J. TIBERI, Ohio              JOE BACA, California
MARK R. KENNEDY, Minnesota           JIM MATHESON, Utah
TOM FEENEY, Florida                  STEPHEN F. LYNCH, Massachusetts
JEB HENSARLING, Texas                BRAD MILLER, North Carolina
SCOTT GARRETT, New Jersey            DAVID SCOTT, Georgia
GINNY BROWN-WAITE, Florida           ARTUR DAVIS, Alabama
J. GRESHAM BARRETT, South Carolina   AL GREEN, Texas
KATHERINE HARRIS, Florida            EMANUEL CLEAVER, Missouri
RICK RENZI, Arizona                  MELISSA L. BEAN, Illinois
JIM GERLACH, Pennsylvania            DEBBIE WASSERMAN SCHULTZ, Florida
STEVAN PEARCE, New Mexico            GWEN MOORE, Wisconsin,
RANDY NEUGEBAUER, Texas               
TOM PRICE, Georgia                   BERNARD SANDERS, Vermont
MICHAEL G. FITZPATRICK, 
    Pennsylvania
GEOFF DAVIS, Kentucky
PATRICK T. McHENRY, North Carolina

                 Robert U. Foster, III, Staff Director



           Subcommittee on Housing and Community Opportunity

                     ROBERT W. NEY, Ohio, Chairman

GARY G. MILLER, California, Vice     MAXINE WATERS, California
    Chairman                         NYDIA M. VELAZQUEZ, New York
RICHARD H. BAKER, Louisiana          JULIA CARSON, Indiana
PETER T. KING, New York              BARBARA LEE, California
WALTER B. JONES, Jr., North          MICHAEL E. CAPUANO, Massachusetts
    Carolina                         BERNARD SANDERS, Vermont
CHRISTOPHER SHAYS, Connecticut       STEPHEN F. LYNCH, Massachusetts
PATRICK J. TIBERI, Ohio              BRAD MILLER, North Carolina
GINNY BROWN-WAITE, Florida           DAVID SCOTT, Georgia
KATHERINE HARRIS, Florida            ARTUR DAVIS, Alabama
RICK RENZI, Arizona                  EMANUEL CLEAVER, Missouri
STEVAN, PEARCE, New Mexico           AL GREEN, Texas
RANDY NEUGEBAUER, Texas              BARNEY FRANK, Massachusetts
MICHAEL G. FITZPATRICK, 
    Pennsylvania
GEOFF DAVIS, Kentucky
MICHAEL G. OXLEY, Ohio



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    July 12, 2005................................................     1
Appendix:
    July 12, 2005................................................    49

                               WITNESSES
                         Tuesday, July 12, 2005

Bullock, Michael, President, Intermap Federal Services, Inc......    24
Edelman, Scott K., President, Watershed Concepts.................    26
Jenkins, William O., Jr., Director, Homeland Security and 
  Justice, U.S. Government Accountability Office.................    22
Maurstad, David I., Acting Mitigation Division Director and 
  Federal Insurance Administrator, Emergency Preparedness and 
  Response Directorate, Department of Homeland Security..........     3
Small, Cheryl A., President, National Flood Determination 
  Association....................................................    27
Williams, James R., Co-Chairman, Mapping and Engineering 
  Standards Committee, Association of State Floodplain Managers..    29

                                APPENDIX

Prepared statements:
    Oxley, Hon. Michael G........................................    50
    Browne-Waite, Hon. Ginny.....................................    53
    Ney, Hon. Robert W...........................................    54
    Bullock, Michael.............................................    56
    Edelman, Scott K.............................................   107
    Jenkins, William O., Jr......................................   124
    Maurstad, David I............................................   145
    Small, Cheryl A..............................................   154
    Williams, James R............................................   160

              Additional Material Submitted for the Record

Miller, Hon. Gary G.:
    National Association of Realtors, prepared statement.........   175
Jenkins, William O., Jr:
    Written response to question from Hon. Stevan Pearce.........   182
Maurstad, David I.:
    Written response to question from Hon. Stevan Pearce.........   184
    Written response to question from Hon.Robert W. Ney..........   185


                      FLOOD MAP MODERNIZATION AND

                       THE FUTURE OF THE NATIONAL

                        FLOOD INSURANCE PROGRAM

                              ----------                              


                         Tuesday, July 12, 2005

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2128, Rayburn House Office Building, Hon. Gary G. Miller 
[vice chairman of the subcommittee] presiding.
    Present: Representatives Ney, Miller of California, Jones, 
Brown-Waite, Pearce, Neugebauer, Fitzpatrick, Davis of 
Kentucky, Waters, Miller of North Carolina, Scott, and Green
    Mr. Miller of California. [Presiding.] This hearing of the 
Subcommittee on Housing and Community Opportunity will come to 
order. Today's Subcommittee on Housing and Community 
Opportunity meets to continue its review and oversight of the 
National Flood Insurance Program. Specifically, today's hearing 
will focus on FEMA's program of updating flood maps and how 
this process affects the flood insurance industry and local 
communities.
    Flood maps identify areas of greatest risk of flooding and 
provide the foundation for the National Flood Insurance 
Program. The maps are used by the communities to establish 
minimum building standards designed to reduce the effects of 
flooding and also guide FEMA in setting insurance rates. 
However, nearly 70 percent of the country's flood maps are more 
than 10 years old, according to FEMA, and reflect outdated data 
that could affect the ability to accurately identify flood 
hazard areas. As a result, the agency is in the middle of 
implementing a $1 billion, 5-year map modernization program to 
update its flood maps. I am hopeful that today's hearing will 
give us a better understanding of FEMA strategy and expected 
benefit of more accurate and accessible flood maps.
    Floods have been and continue to be one of the most 
destructive and costly natural hazards in our Nation. In the 
aftermath of Hurricane Dennis this past weekend, I fear many 
communities in the South and Midwest will witness the 
unrelenting power firsthand, as a tropical depression continues 
to unload heavy flooding rains in the inlands.
    The National Flood Insurance Program is a valuable tool in 
addressing the losses incurred throughout the country due to 
flood. It assures that businesses and families have access to 
affordable flood insurance that would not be available in the 
open market.
    As part of the passage of the National Flood Insurance Act 
of 1968, insurance companies generally did not offer coverage 
for flood insurance disaster because of the high risk involved. 
Today almost 20,000 communities participate in the National 
Flood Insurance Program. More than 90 percent of the companies 
sell and provide flood insurance policies. There are 
approximately 4.4 million policies covering a total of $620 
billion. Last year's Flood Insurance Reform Act achieved 
significant reforms to the important Federal program.
    And I look forward to hearing from all our witnesses today 
as we discuss FEMA's implementation of its flood mapping 
policies as well as determining whether new reforms and 
initiatives are in order to accomplish this work as we 
accomplish this year.
    I now will yield to the Chairman.
    Mr. Ney. Thank you. And I want to thank Congressman Miller 
for chairing this. And I will be in and out. But I will be back 
because of today's important testimony, and I think that 
Chairman Miller has summarized this in a right and adequate 
way, eloquently, what we are about here.
    During the past year there have been three major floods in 
the district I represent in Ohio. All three of these incidents 
qualified for Federal flood relief and was granted by President 
Bush in January of this year, but it resulted in historic 
levels of damage and destruction in several local areas and 
also in some problems with the dams, especially, for example, 
Tuscarawas County. Three communities were forced to evacuate in 
Tuscarawas County and displaced 7,000 people in the snap of a 
finger.
    I was able to, obviously, witness this terrible devastation 
not only in Tuscarawas, but in Guernsey County and Ross and 
other counties throughout the district.
    I am going to actually hold a hearing, probably in 
Tuscarawas County, a field hearing next month to continue the 
subcommittee's oversight of the National Flood Insurance 
Program. And it is a valuable tool.
    And I think we will hear some interesting testimony today 
about mapping. Mapping is important. It is important for the 
future. It is important for the flooding areas, and also, 
frankly, for where you can develop.
    I just had a constituent come this week about a 
development, and they are in total dispute about how correct is 
the mapping or how incorrect is the mapping. And actually when 
you look at one of the maps, it shows that they should be able 
to do development, but it has kind of randomly been designated. 
There can't be development on that site. And I think those are 
issues that can be dealt with, frankly, and cleared up in a 
large part through technology.
    So I want to thank both panels today and thank Mr. Miller 
for support of this issue. Thank you.
    [The prepared statement of Hon. Robert W. Ney can be found 
on page 54 in the appendix.]
    Mr. Miller of California. Mr. Pearce from New Mexico.
    Mr. Pearce. Distinguished Chairman, I appreciate this 
hearing. Early in 2003 when I first arrived at Congress, one of 
the communities brought to my attention that they were not able 
to get development because the floodplain maps that were drawn 
had been expanded without consideration of many of the factors; 
for instance, a diversion dam that had been put upstream. The 
FEMA was very resistant to recalculation, and we are still in 
an ongoing process. But we will be very interested in listening 
to the testimony today, and I appreciate you having the 
hearing.
    Mr. Miller of California. Mr. Neugebauer, do you have an 
opening statement? Ranking Member Waters?
    Ms. Waters. Thank you very much, Mr. Chairman, I have been 
trying to learn information about floods and flood control and 
flood insurance. And today is a very important hearing because 
I suppose we are going to find out about--and I hope we will 
find out about FEMA's maps, whether or not they are modernized, 
whether or not they are adequate to be able to distinguish 
between those areas where people absolutely need insurance, and 
maybe those areas where people don't need insurance. So I am 
anxious to hear from our witnesses that will be here today.
    And with that, I will yield back the balance of my time.
    Mr. Miller of California. Thank you.
    Our panel today, we have David Maurstad. He is the Acting 
Mitigation Director and Federal Insurance Administrator for 
Emergency Preparedness and Response Directorate at the 
Department of Homeland Security. His area of oversight includes 
the National Flood Insurance Program, the National Earthquake 
Hazard Reduction Program, the National Dam Safety Program, and 
the National Hurricane Program.
    You are a busy man, aren't you?
    Previously, Mr. Maurstad served as Regional Director of 
FEMA's Region 8, where he coordinated FEMA's activities for six 
western States, including the State of Nebraska, where he has 
served as Lieutenant Governor. And we are looking forward to 
your testimony, sir.

  STATEMENT OF DAVID I. MAURSTAD, ACTING MITIGATION DIVISION 
    DIRECTOR AND FEDERAL INSURANCE ADMINISTRATOR, EMERGENCY 
 PREPAREDNESS AND RESPONSE DIRECTORATE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Maurstad. Good morning, Mr. Miller, Chairman Ney, and 
Ranking Member Waters, and subcommittee members. I am David 
Maurstad, the Mitigation Division's acting director within the 
Department of Homeland Security's Emergency Preparedness and 
Response Directorate, which includes the Federal Emergency 
Management Agency. I appreciate the opportunity to appear today 
before the Subcommittee on Housing and Community Opportunity.
    First, I would like to thank the subcommittee for its 
support of FEMA's flood map modernization program, a program to 
modernize the Nation's flood insurance rate maps over a 5-year 
period. The resources Congress has provided are resulting in 
products that increase flood risk awareness, stimulate dialogue 
among various levels of government and industry, and help 
communities mitigate against flood losses. As a result, we will 
continue to make this Nation less vulnerable to flooding.
    FEMA and its partners provide flood hazard maps and data to 
support flood insurance and community floodplain management 
activities for the NFIP. Flood map modernization uses state-of-
the-art technology, on-the-ground intelligence, and a strong 
set of mapping guidelines, specifications, and standards to 
deliver reliable data and maps in geographic information system 
format.
    Digital flood maps provide many benefits. They provide a 
uniform structure for assessing our Nation's changing 
vulnerability to flooding, allowing us to monitor flood 
mitigation's effectiveness. The digital data, along with the 
platform to store, maintain, and distribute the information 
also can be used to support other activities such as 
preparedness, response, recovery, and local planning. Lastly, 
digital maps are easier to maintain and keep current.
    Flood map modernization is well underway. Since 2003, 
Congress has appropriated $550 million for the program. In 
addition, under our Cooperating Technical Partner Initiative, 
we expect by the end of fiscal year 2005, our 212 active State, 
regional, and local community mapping partners will have added 
over $100 million in data and other resources. The CTP program 
has been very well received and continues to yield both short- 
and long-term benefits.
    We have also engaged industry to help us develop solutions. 
That is, we have presented them with objectives and asked them 
how best to meet those, rather than the more traditional 
government approach of mandating a solution and asking them to 
work within it. This is being accomplished by the issuance of 
performance-based contracts both at the national and regional 
level.
    We also regularly meet with industry to share ideas, 
stimulate growth, collect feedback, and collect feedback on 
technical procedures and practices. Using these practices, and 
through these partnerships, we have completed mapping projects 
in nearly 1,000 of our most at-risk communities. And flood 
mapping modernization projects are underway in over 2,100 other 
communities. Our goal is to have the Nation's flood map 
inventory modernized by 2010 with all maps in a GIS format and 
available online.
    Equally important, we will have a comprehensive and robust 
risk identification and assessment system, allowing us to more 
readily track, over time, the Nation's ability to reduce its 
flood vulnerability. There is no one-size-fits-all solution to 
identify the Nation's flood hazards. The risks and the people 
they impact are diverse. For example, in the arid West, 
streambeds can lay dry for years, yet these innocuous features 
can release torrents of water without warning after a brief 
thunderstorm. On the other hand, in the East where it rains 
regularly and vegetation is thick, rivers that flow year round 
tend to take days before reaching their peak. Along our coasts, 
the hazards also vary widely. In the South Atlantic and Gulf, 
hurricanes strike quickly compared to long, drawn-out extra 
tropical storms that can pound the Northeast shores for days. 
In the Pacific, long highways tend to elevate water levels 
through processes that are entirely different than those of 
hurricanes.
    The Nation's variability in landscape and flooding 
characteristics require State, tribal, and local governments to 
use a variety of floodplain management approaches to make their 
communities safer places to live, work, and do business.
    As such, communities require and use different tools to 
collect that data needed to properly analyze their flood risks. 
Obviously, the Nation cannot resolve its natural hazards issues 
with a single universally applied approach. This country's 
geographic diversity, combined with its variety of natural 
hazards threats, requires us to apply, mix, and match a series 
of processes to effectively identify hazards, communicate 
risks, and reduce vulnerability.
    We understand the ramifications of producing flood maps 
which do not accurately reflect the risk. We realize there are 
concerns regarding use of ground elevation data and other 
information that is potentially inaccurate. To offset the risk 
of error, we have implemented a risk-based approach to ensure 
quality, leverage industry best practices and lessons learned, 
and foster opportunity for community involvement.
    This approach has been applied and proven successful in 
many areas around the Nation. For example, in our partnership 
with the State of Nebraska, U.S. Geological Survey topographic 
data are utilized in conjunction with field reconnaissance to 
develop flood hazard maps and data. In North Carolina we 
utilized detailed ground elevation information generated by the 
State's own laser technology. This data, in conjunction with 
automated hydraulic modeling techniques, helps to identify 
flood risk in moderately developed areas.
    In Lincoln County, Ohio, we have partnered with the county 
to produce draft flood maps using aerial photographs, 
topographic data, and flood hazard information developed using 
local and State resources.
    We have firmly committed to a clear quality standard for 
modernized maps to make sure that poor quality hazard 
information is not simply digitized from an old map. Developed 
with the support of our key stakeholders, this standard 
requires that, at the minimum, all the flood hazard boundaries 
on modernized maps will be evaluated and adjusted as necessary. 
Overall, this program's ability to meet the unique and diverse 
risks faced by a variety of stakeholders relies on a sound 
balance between efficiency and flexibility. We have done this 
by performing much of the work associated with flood hazard 
identification at the local level in a decentralized fashion 
while managing the work centrally using technology, earned 
value management techniques, and integrated performance teams.
    Although we have a long way to go to modernize the Nation's 
flood map inventory, our progress to date shows we have focused 
initially on areas where there is the greatest flood risk, we 
have hit the ground running, and that our solution strikes a 
good balance between efficiencies through standardization and 
flexibility by allowing industry and State and local 
governments to tailor solutions to suit unique situations.
    Again, I want to thank the subcommittee for its support of 
flood map modernization. We are well underway, and we look 
forward to making this Nation more disaster-resistant and 
better equipped to deal with the ever-present danger of floods.
    I would be happy to answer any questions that you may have.
    [The prepared statement of David I. Maurstad can be found 
on page 145 in the appendix.]
    Mr. Miller of California. Thank you. Without objection, 
your statement will be made a part of the record.
    There are more than 92,000 flood maps currently available, 
and I think over 65,000 of those are more than 10 years old. A 
lot of them are inconsistent and inaccurate and nonstandardized 
data available in those.
    Are these the maps that FEMA plans to digitize, or are 
there plans to replace this data?
    Mr. Maurstad. Mr. Miller, I am sorry, I cannot hear you.
    Mr. Miller of California. Can you hear me now?
    Mr. Maurstad. A little better.
    Mr. Miller of California. We will turn the volume up.
    There are over 92,000 flood maps available, and over 65,000 
of those are over 10 years old. They contain data that is 
inconsistent, inaccurate, and nonstandardized.
    Are these the maps FEMA plans to digitize, or are there 
plans to replace those maps? 
    Mr. Maurstad. Not in every circumstance. What we are doing 
in the flood map modernization process is working with and 
through the regions with States as they have developed their 
State business plans to determine what areas of the State need 
additional work and what areas of the State where the previous 
data is still adequate and that can be digitized.
    So it is important to understand that we are working very 
closely with the local partners in determining through the 
scoping process what their needs are and then working with the 
State in trying to fund those various efforts.
    Mr. Miller of California. How would the process go for 
State and local government to qualify for FEMA funds to go 
through this process?
    Mr. Maurstad. How would the process--
    Mr. Miller of California. How would they go through the 
process to qualify? Can you describe the process they go 
through? If a local government or State wants to participate in 
this, how do they go through the process with FEMA to qualify 
for funds?
    Mr. Maurstad. We have published the Multiyear Flood Hazard 
Implementation Plan that details and outlines the methodology 
by which we are going to fund various mapping efforts in the 
individual States. We provided assistance for the States to 
develop business plans. They submitted those business plans to 
the 10 FEMA regions. Those regions looked at those plans and 
have worked with the State to develop the process by which to 
proceed.
    We at the national level have taken those plans and given 
the resources that are available, have provided the regions 
funding for them to work with the State partners on a 
prioritized basis--the highest risk areas being done first--for 
the digitization process to occur. So it is a bottoms-up 
process. But there is a very close working relationship between 
the regions and the States in determining how those States will 
be mapped.
    Once those areas are identified within a State, the region 
will work along with the State and the communities in looking 
at--it is called the scoping process--what needs to be done to 
meet the standards that have been published, to bring those 
maps up to the GIS quality standards that we are looking for.
    Mr. Miller of California. We have had a lot of flooding in 
the last 2 years. Do you have any idea of what percentage of 
people were impacted by floods and claims that were not 
necessarily in flood hazard areas, and what percentage of the 
people do you think have flood insurance that were not in flood 
hazard areas? Do you have any idea what the numbers might be, 
the percentages?
    Mr. Maurstad. No, I don't. Of course, there is--the whole 
mapping process is intended to try to delineate what one's risk 
is for flooding. And there is going to be, of course, there is 
a sliding scale for that. And there certainly are a number of 
flooding events that could happen in those areas that are, 
based on the maps, less vulnerable than those right alongside. 
There are a lot of factors that go into determining the risk, 
and so it is--everyone to a certain extent is at risk.
    And what the mapping process is intended to do is delineate 
what that risk is, use that information to not only make land-
use decisions at the local level, but provide the basis by 
which flood insurance can be appropriately priced and provide 
the basis for making sure the national flood insurance fund 
remains strong.
    Mr. Miller of California. Of the 92,000 maps we recently 
have, over two-thirds are out of date. Now we are going to 
update those. How do we prevent this from happening in the 
future? Do you have any idea on that? Is there a program that 
is going to be implemented to make sure they are updated on a 
regular basis so we don't have the same situation occur again?
    Mr. Maurstad. The current plan certainly looks at making 
sure that all of the maps are updated, brought into the GIS 
world. We are along the way determining that there are areas 
where additional studies may need to be required. The plan is a 
fluid plan, one that is going to need to continually be 
assessed, which we do twice a year with our mapping partners. 
And so right now we are focused on the process of getting those 
maps up to date.
    Certainly at the--our target is 2010.
    As we approach the completion of this phase of our work, it 
would certainly--and it is a personal goal of mine that we, in 
fact, provide the mechanisms by which the maps can be 
maintained out into the future.
    Part of that will be more possible in this environment than 
the old paper environment because this technology will allow 
for these maps to be updated far more easily. Our hope is that 
we will have willing partners at the local and regional level 
that will assume responsibility for updating and maintaining 
those maps. And that is certainly a part of the process that we 
are working on in this multiyear effort.
    Mr. Miller of California. Thank you.
    Ms. Waters, you are recognized for 5 minutes.
    Ms. Waters. Thank you very much.
    I have information that shows the average age of FEMA's 
flood maps is 18 years. Is it true that in many cases, FEMA's 
maps modernization program is digitizing old data?
    Mr. Maurstad. Well, there are certainly some cases where 
that may be the fact. And it may very well be appropriate. Just 
because those maps are 18 years old, or the data is 18 or more 
years old, does not mean that that data is inaccurate. The 
topography may very well be the same; the population may very 
well be the same. The factors that were in place when those 
maps were developed 18 years ago for the paper medium may, in 
fact, be the most accurate and the most needed information in 
the GIS basis.
    If during the process it is identified that that data on 
the paper maps that is 18-plus years old is not accurate, then 
we are committed to making sure that those maps reflect the 
needed information so that State and--or so that local 
governments can, and individuals can make decisions, risk-based 
decisions, and so that it appropriately supports the National 
Flood Insurance Program.
    Ms. Waters. Well, several counties are complaining that due 
to the age of FEMA's maps, they have been forced to comply with 
regulations that at best do not serve or at worst harm their 
constituents. For example, in Collier County, Florida, county 
commissioners complain that the FEMA maps incorrectly show they 
have areas in harm's way, forcing residents to needlessly 
purchase flood insurance. Conversely, some Texas officials are 
complaining that they have areas that are in harm's way, yet 
FEMA's maps indicate no risk exists.
    So my question is, and my allegation, perhaps, is not that 
you simply may be digitizing old maps, but I want to really 
understand what you do to ensure that that information is 
updated. Whether there has been development that has changed 
the topography or what, are we sure that we have all the 
information? And if old maps are being digitized and there is 
no problem, that is fine. But it is not fine if, in fact, there 
have been changes and they are not reflected in the new maps. 
That is what we are concerned about.
    How can you assure us of that?
    Mr. Maurstad. Certainly I understand that. I know 
firsthand, as a former mayor, that there are always going to be 
disagreements amongst individuals as to whether they should be 
in the floodway and required to buy insurance or not.
    My experience as a regional director merely solidified that 
previous experience at the local level as I worked with 
communities in FEMA Region 8 in working with their citizens in 
making sure that there was confidence in the accuracy provided; 
that was, of the data being provided for those maps.
    Again, what we utilized were the resources and the 
information at the local level. We seek that information. We 
want the maps to be accurate. We want there to be community 
buy-in for those maps. So we work very closely with the 
communities in developing these maps. It is to our mutual 
benefit that it be done.
    So in this process, the scoping process, where we literally 
sit down at the table and work with the community and the 
individuals that are responsible for the local efforts and work 
through these various issues point by point--and, again, I 
would just say that we are committed to making sure that we use 
the best data available and that the maps are accurate, and 
that in those circumstances where there are difficulties, we 
will do what we have done in the past, and that is try to work 
as amicably as possible with the local communities.
    Ms. Waters. That is extremely important. There is a lot of 
controversy around this whole issue. I understand that there is 
a lawsuit. And I am not going to ask you to comment on the 
lawsuit, but I am curious about something. Is this flood 
insurance intended to restore policyholders to pre-flood 
conditions, or is there something else different? What is the 
language in the policy?
    Mr. Maurstad. As I indicated in my previous testimony 
dealing with the flood insurance program, the sale of insurance 
and flood insurance program, restoration of pre-flood condition 
is, in my review, in legislation, it is not in the flood 
insurance policy. It is not the intent that the flood insurance 
policy would provide policyholders or restore them to what--
depending upon your definition of pre-flood condition--that is 
not the intent of the program from my analysis. The intent of 
the program, the intent of the insurance policy, was to assist 
the policyholders in the recovery from the financial effects of 
a flooding event.
    Ms. Waters. Has anyone--do you have, and can you get us a 
copy of the policy? This continues to be a real question. And I 
want to know exactly what is in the policy.
    And I then I would like to, if I may, Mr. Chairman, just 
ask that you respond to a request that was made of you from Mr. 
Steve Kanstoroom. In May, he along with Representatives Hart, 
Davis, and Ruppersberger submitted document requests and 
questions to FEMA on the record that pertain to oversight of 
the National Flood Insurance Program. And since that time, they 
have not received any response.
    And 2 weeks ago, of course, the Washington Post reported 
this $2 billion lawsuit was filed against FEMA and its 
insurance partners. Now, the suit goes to many of the same 
issues that are still--that are unanswered requests. I also 
understand that similar suits will be filed in additional 
States.
    Can we expect that the answers to the questions from these 
gentlemen be given and the documents that they are requesting 
some time soon? Are you familiar with these requests?
    Mr. Maurstad. Ma'am, we have responded or are in the 
process of responding to every congressional inquiry and 
question that has come to my office. The individual that you 
mentioned is a party of a lawsuit. Our Office of General 
Counsel is dealing with that lawsuit. But most importantly, we 
have responded--
    Ms. Waters. Sir, will you do me a favor? And if you think 
you have responded to him or if you are yet to respond, would 
you get back to this committee and let us know when you did 
respond or when you are going to respond to these requests?
    Mr. Maurstad. I will check with the Office of General 
Counsel and we will certainly provide the information that we 
are able to to this committee, no question.
    Ms. Waters. All I want to know is, did you get them the 
information? And if it is something that their lawyers need to 
request formally, just let us know.
    Thank you. Thank you, Mr. Chairman.
    Mr. Miller of California. Thank you. Consent to insert the 
written testimony in the record by the National Association of 
Realtors, without objection, so ordered.
    Mr. Pearce, you are recognized for 5 minutes.
    Mr. Pearce. Thank you Mr. Chairman.
    Mr. Maurstad, the idea that we have a plateau of funding 2 
million, which damages don't exceed, we don't get help. Is that 
right? The 2 million, is there a threshold of 2 million in your 
agency's responses? If the damage does not exceed 2 million, 
then it is left with the community?
    Mr. Maurstad. I will to have get back to you on that, sir.
    Mr. Pearce. Okay. So you are not aware of any threshold 
that you all place for damages on events?
    Mr. Maurstad. In response to a disaster?
    Mr. Pearce. Yes.
    Mr. Maurstad. Well, could there--yes, but I think that I 
need to defer to the folks--
    Mr. Pearce. Is there a threshold, I guess, and whether it 
is 2 million or--
    Mr. Maurstad. There is criteria which the President 
utilizes in determining whether a disaster declaration--a 
Presidential disaster declaration.
    Mr. Pearce. If there is a threshold, is there a weighted 
threshold? Because $2 million damage in a major city is 
completely different from $2 million in a small community in my 
district, and I wonder--and many times we do not reach the 
threshold for assistance. I am wondering, is there a weighted 
threshold?
    Mr. Maurstad. Yes, there is. But I would prefer that I be 
able to respond to that.
    Mr. Pearce. I would appreciate that, if you get that for 
me. If you would get that response, I would appreciate it.
    What about the idea that in 1993, the agency or whatever 
fund, that the NFIP was deemed to be insolvent and shortly 
after that--you had a questioning look. Was that not true? In 
1993, the Clinton administration did not start rewriting the 
rules for FEMA or for expanding the floodplains?
    Mr. Maurstad. I am not aware, sir. I can find that out.
    Mr. Pearce. It appears that about 1994 the floodplains were 
redrawn, redesignated, increasing them significantly because 
there appeared to be an insolvency in the NFIP. And I guess my 
question is how did the insolvency affect the floodplains? In 
other words, floodplains generally are pretty static and not 
correlated to financial activity, but they have some mobility; 
but many of our communities began to notice about that time 
that they couldn't get development because the floodplains had 
been redrawn, increasing--putting certain places in that had 
not previously been in. Do you have any opinions about that?
    Mr. Maurstad. You know, that is not--that is not my 
understanding. The mapping efforts, to my knowledge, have not 
been correlated with the strength or lack thereof of the 
national flood insurance fund. Certainly the national flood 
insurance fund when I became the acting director a year ago was 
strong. It remains strong.
    Mr. Pearce. In several communities--
    Mr. Maurstad. Excuse me. The mapping is done on a 
scientific basis to determine what the risk is for that 
particular area. It is not done for the purpose of generating 
additional premium for the national flood insurance fund. It is 
done to identify the risk so that individuals can make prudent 
decisions based upon that information.
    Mr. Pearce. There are no internal decisions? I am just 
confirming what you are telling me. There are no internal 
decisions to change the flood mapping? In the mid-nineties 
there were no changed criteria?
    Mr. Maurstad. Certainly none that I am aware of.
    Mr. Pearce. I would like for you to inquire in your agency 
and extend beyond what you are aware of, and if you can get 
back with me on that, on that particular thing, I would 
appreciate that.
    One of the big elements here is you said you always want to 
work with States and communities to determine the risks. The 
community of Carlsbad spent quite a bit of its own money to 
determine that hydrology was a very important factor, yet FEMA 
continues to assert that hydrology is not a very important 
factor. When you have a disagreement like that, who wins in the 
dispute?
    Mr. Maurstad. What we try to do in working through 
circumstances like that is to be able to rectify the difference 
in the experts' opinions. But in the end, if there is a 
difference between what the program believes is the most 
accurate data, it is our responsibility to act on that 
information in the administration of the program.
    Mr. Pearce. And in this case, the hydrology still seems to 
be disregarded. And I will tell you that the hydrology has put 
the town down in the floodplain with the highest point in 
Texas--I mean in New Mexico--but the highest point in Texas 
occurs about a mile across the border, and the pressure from 
water that falls on that highest point builds up, always 
putting tremendous pressure down at the bottom of the base of 
those geographic or geologic formations, tremendous hydrologic, 
hydrostatic pressure there. And I am not sure your agency has 
been extremely responsive.
    Thank you, Mr. Chairman.
    Mr. Maurstad. We will go back in and work with the region 
and try to see if we can come to a mutually acceptable decision 
in that circumstance.
    Mr. Miller of California. Mr. Miller from North Carolina is 
recognized for 5 minutes. You have no questions?
    Mr. Neugebauer from Texas recognized for 5 minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman. Thank you for 
having this important hearing.
    One of the things that I have heard from some of the 
communities in my district as we go through this remapping 
process is that the initial grants were not enough money to 
really complete the entire community. And that, for example, I 
think in Abilene, I think was they could only study like three 
or four runoff areas, and I think there were 26.
    We have been working to help get those funds to complete 
that. But one of the things that concerns me, I just wonder if 
that is going on around the rest of the country. And it appears 
to me a better strategy is if you are going to systematically 
remap communities, that partially completed flood maps don't 
really do you much good. You might as well have, you know, the 
old maps.
    What are you doing to look at, you know, completing and 
making sure that what we leave a community here, what we leave 
a region, that we do have new, valid, updated maps?
    Mr. Maurstad. Again, the regional office is working with 
the States to--of course, they are working with their 
communities to determine the process of when--what is going to 
happen where within that particular State based upon the 
criteria that we set out in the guidelines. So, again, you have 
to go back to that specific situation and see what the 
circumstances are.
    But most importantly, what we are doing now as this program 
is really getting into gear is taking a look at what we have 
learned from all these scoping meetings that have gone on 
around the country and seeing if we can develop some type of an 
analysis of what is being required when and what it costs so 
that we can then use that data to determine whether or not 
the--and how best to use the resources that Congress has 
provided us.
    So we now have some information that was not available a 
couple of years ago to be able to assess how to continue to 
move forward.
    Mr. Neugebauer. I heard you talking a little bit about some 
of the technology you are using. And I know aerial surveying is 
a technology. And are we investing in that, and are we--is that 
an option for us to use on a broader basis than we are using it 
currently now?
    Mr. Maurstad. We are looking at all technology. And the 
direction has been to use the technology that is most 
applicable to the circumstances. There are certainly areas of--
in fact, in Region 6 where the technology we talked about is 
certainly applicable, it is certainly being used. It is being 
tested there, and we are using that information on a pilot 
basis to determine where it can be utilized. That technology 
does not work very well where there is a lot of vegetation. So 
there are some areas where it works very well and it is 
acceptable, certainly acceptable, some areas where it is not. 
The same can be said for other technology that is being used in 
the other circumstances.
    So our primary mapping contractor is working with all the 
available technology and what works best in each particular 
circumstance.
    Mr. Neugebauer. We don't have the vegetation problem, as 
you know, in--
    Mr. Maurstad. No, you don't. That is why it works out.
    Mr. Neugebauer. My second question is based on where you 
are in the program today and based on--obviously you had some 
cost estimates--what it was going to take to do this project. 
Do we have enough money? And if we don't have enough money, you 
know, do you have a feeling of what it really takes to complete 
this process in a timely manner so that these communities can 
have that data available to them, and people that are currently 
paying for flood insurance that shouldn't be, and those that 
aren't that should?
    Mr. Maurstad. Yes. As my testimony indicated, we feel as 
though we are going to be able to meet what Congress outlined 
for us when the program started. Nonetheless, it is also 
prudent of us, as I indicated before, to analyze and provide 
actual hard data on what it costs to map certain areas and to 
be able to determine how best we can use those resources. So we 
are in the process of that analysis.
    Mr. Neugebauer. And is there a need to do this 
comprehensive remapping in every area? Are there areas of the 
country that--
    Mr. Maurstad. No. There doesn't need to be a new study done 
on every area. And in fact, what was contemplated when map 
modernization began was not that there would be new studies 
done in every area. There are certainly some areas where the 
current data is certainly acceptable and what needs to be done 
is that data transferred from the paper--paper environment to 
the digital environment. There are some areas that are at risk 
and some areas that are certainly not at risk. And so it is 
perfectly appropriate that those maps would be digitized.
    But the process itself also--that base map is going to be a 
better map than before. So there will be some changes in most 
all maps. Whether that changes the risk will differ from 
circumstance--again, circumstance to circumstance. It is very 
difficult when we are talking about 90,000 mapping areas to 
be--you know, make general statements, because virtually there 
are--most areas are different from the other areas. We try to 
put in place a process that is flexible enough to recognize all 
of that, have standards that are flexible enough to recognize 
that, and yet have quality maps throughout for the communities 
to use and for the programs to use.
    Mr. Miller of California. Gentleman's time has expired.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Miller of California. Thank you.
    Mr. Fitzpatrick from Pennsylvania is recognized for 5 
minutes.
    Mr. Fitzpatrick. Thank you very much, Mr. Chairman.
    Mr. Maurstad, I appreciate your commitment to flood map 
modernization. This is a Federal program as much as any other 
that impacts constituents, at least those who live within 
flood-prone areas, in a very significant and personal way.
    Until January of this year I served as a county 
commissioner in a large county in southeastern Pennsylvania 
that has sustained many very serious floods in the last 9 
months, and I am always amazed during the response, not so much 
the response, but in how many constituents didn't know they 
were in the flood area, weren't notified. And the problems, the 
calls that go to the emergency management office about the 
flood mapping process are always after the fact.
    And then about 2 weeks ago I received a call from a 
constituent of mine, an elderly couple that lived in a home for 
a long period of time. The home had never been flooded, water 
never near the home. They are in the process of actually 
applying for and receiving what is called a reverse mortgage so 
that they can stay in their home during their senior years and 
have some resources to fix up the home and as part of that 
mortgage application process, found out that they are now in a 
flood designated area, even though the home had never been 
flooded. And it may be the condition that precludes them from 
getting this reverse mortgage, stops them from staying in their 
home during their senior years, the fact that they, according 
to these flood maps, now a mortgage company will now require a 
flood insurance policy for them, and they are not cheap. They 
don't come inexpensively.
    So I guess my question is, as you pursue modernization, 
what can we do to help our constituents better understand that 
process? I know it is not something they think about every day 
when they get up. But is there a plan of public participation, 
a plan of public information that will closely bring in the 
local governments, the State emergency management 
organizations, to get the word out there, specific contacts to 
individuals who are being moved into a flood mapped area or out 
of a flood? And that is important as well. People who have 
flood insurance continue to pay and then find out they are not 
in a floodplain area anymore and then get flooded.
    So what is the plan of public participation and information 
that will help our constituents better understand what you do?
    Mr. Maurstad. Let me respond first in a broader context. We 
have a public awareness campaign now--Flood Smart, that is--
targeted to communicating more, all across the country, on the 
risks associated with floods, that floods can happen to any of 
us, and that floods are not covered under your homeowner's 
policy, and so you need to get a flood insurance policy to 
protect yourself from that possibility.
    So we continue to do that. It has actually been successful. 
We have had 13 consecutive months of more policies than before. 
So we think we are reaching more people with the message not 
only that you need the protection, but raising overall 
awareness of the flood hazard vulnerability that we are prone 
to flood.
    Secondly, and most importantly, in the circumstance it is 
required that there be community adoption of these flood maps. 
Now that process will certainly vary from community to 
community and State to State.
    But there is a link--and I will get it for you--from the 
time that we issue preliminary maps until the time that those 
maps become final; it is a 12- to 18-month process, primarily 
because we require community notice, that there be community 
participation--I am not sure if it happens every time, so I 
want to have a caveat--where there is notice given to the 
property owners that they are going to be brought into the 
floodway.
    So we need to work with and encourage our local officials 
and communities to make this awareness greater, that the 
public--potentially they go beyond the public notice in the 
newspaper that there is going to be a hearing to adopt the 
maps. So we are working with that.
    In addition, part of the digitization process will be that 
this information will be online and more accessible to your 
constituents than the paper maps were that are housed in a 
warehouse somewhere.
    So our hope is through the libraries, if they are elderly 
people--although most of the elderly people that I know now, 
most of them are online too--will be able to access this 
information, If you go on to the Flood Smart Web site, for 
example, and put in your zip code and address and you can find 
out what your flood risk is.
    So we are committed to that communication component that 
you talked about. And it was certainly important in the past; 
it is even more important as we go through this map 
modernization process. And we are going to have more of these 
maps that are going to need to be adopted at this community 
level. This communication piece and the acceptance of the 
community is going to be critical as we move forward.
    Mr. Miller of California. Gentleman's time has expired.
    Mr. Jones from North Carolina is recognized for 5 minutes.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, Mr. Maurstad, I want to give you a situation that came 
to a satisfactory conclusion. When we talk about this new 
mapping system and how it is going to impact on the people, I 
think in the long run it is going to be extremely helpful. I 
have the Outer Banks of North Carolina in my district, mostly a 
coastal area, with the exception of Wilmington, which is 
Congressman McIntyre. We are very interested in insurance as 
well as the new mapping system.
    I got a call about a year ago from a constituent in Camden 
County who said, Congressman, I can't put a shed to put my new 
ride mower in my backyard. And I said, well, this sounds like 
it should be a county problem. He said no. He said, no, it is 
FEMA. And I said, FEMA?
    And so then my staff and I looked into it. And obviously 
they were doing some of the mapping, digitized mapping systems. 
They were in the process. And this was what the problem was.
    But the reason I bring that up, Mr. Chairman, is it came to 
a very satisfactory conclusion. And I want to compliment FEMA 
and Mr. Fabrizio, who I called, and he came down with my staff, 
along with the local officials in the State of North Carolina, 
and it was a satisfactory conclusion.
    So I just wanted to bring it down to the people who pay the 
taxes and to give you just a little example of how this 
person--I think in the long run for that county, it is going to 
be very beneficial.
    I think you have spoken to this, but I wanted to ask you to 
repeat. Once this modernization has taken place, we in eastern 
North Carolina, and I am sure any other coastal area of 
America, it seems like whether you live on the coast or you 
live inland of the coast, the insurance is just getting to be 
astronomical. And my good friend from New York was talking 
about older citizens. And they are the ones that primarily live 
in these inland counties close to the coastal areas.
    Do you believe that the insurance industry itself, once 
this new, more sophisticated mapping is available, do you think 
that they will try to look at some method or some format to see 
if there is any way, based on the new mapping systems, that 
they can help bring the cost down for the consumer?
    Mr. Maurstad. Well, I certainly am not in a position to 
speak for the industry, but I would say that, you know, we 
are--FEMA, the NFIP program, is committed to that direction in 
the NFIP reauthorization, that flood insurance be affordable. 
So when my staff, when the actuaries are developing the rates 
that we are going to require to make sure that the fund is 
strong, we certainly are very mindful that we need to make the 
insurance as affordable as possible.
    And part of that certainly is the balance as to the extent 
of the coverage that can be provided with the cost associated 
with increasing coverage, increasing the provisions and the 
benefits under the policy. So we weigh that constantly also, 
and that is why there are deductibles and that is why contents 
are only covered on an actual cash value basis and why we don't 
have additional living expense provided under the standard 
flood insurance policy.
    So we are very cognizant of that. Relative to the mapping, 
of course, we are hopeful that the map modernization process in 
those areas where additional work is being done, that that 
information will be able to be utilized by the fund to more 
accurately reflect the risks associated with the example of the 
individual that you had before, what the cost of that insurance 
ought to be in relationship to the risk, and that that risk be 
able to be spread throughout the 4.6 million policyholders 
fairly.
    But also, and it is not to--we don't map so that we get 
more people that have mandatory purchase. But we are hopeful 
that as the risk is better identified and people recognize what 
their risk is, they will take the same steps in addressing 
their flood risk as they will in addressing their fire risk or 
the risk that their roof will be hailed on in certain parts the 
country, et cetera; and by doing so, will be able to expand the 
number of policyholders, which will give us more people to 
spread the overall risk associated with the program amongst 
more individuals and be able to maintain affordability.
    Mr. Jones. I thank the gentleman. Thank you.
    Mr. Miller of California. [Presiding.] Mr. Davis from North 
Carolina.
    Mr. Davis, do you have any questions?
    Mr. Davis of Kentucky. Kentucky.
    Mr. Miller. Kentucky, I'm sorry.
    Mr. Jones. Mr. Chairman, we will claim him.
    Mr. Davis of Kentucky. Mr. Chairman, although we have had 
very pleasant experiences in North Carolina, I am from the 
Commonwealth area.
    One question that I am interested in: your perspective on 
integrating this overall with a homeland security management 
process, as well as dealing with flood issues. There are direct 
interoperability issues that I think are very relevant.
    Do you see this as being a fully integrated network-centric 
mapping system similar to what the Department of Defense uses 
operationally to be able to provide instantaneous response 
capability to folks who are going to be participating and 
responding to disasters, as well as providing ease of update?
    Mr. Maurstad. I think, while this is a flood map 
modernization initiative, and that is the focus, certainly as 
various local communities use this mapping opportunity, they 
will be able to have this data and this information available 
to them for a variety of reasons, whether that be local 
emergency management planning, mitigation planning. But the 
data that we are collecting is flood specific, so I am not--I 
am certainly not a technology expert. To the extent that that 
would be beneficial, just that data would be beneficial for 
security reasons. I am not--
    Mr. Davis of Kentucky. One of the reasons I prompt my 
question, we have regular flooding--I represent an Ohio River 
district, about 27 percent of the length of the river, but we 
have a lot of the tributary flooding, a serious problem in 
1997--participated in flood relief, a major disaster in one of 
our counties. And accurate maps, particularly of meandering 
streams, different issues like that, really became a bit of a 
problem to get to responders and support elements who were 
coming in. So I was just curious from that perspective.
    I am a big proponent of digitization. I was just curious 
about a wiser vision that you have for this.
    Mr. Maurstad. I think certainly at the local level the maps 
could be utilized in developing their local emergency plans, 
their evacuation plans, their response plans, as you have 
indicated, how you get from the ambulance from one part of the 
county to another during a flooding event. I mean, these maps 
all lend themselves to helping that decision-making process.
    Mr. Davis of Kentucky. Thank you.
    I yield back, Mr. Chairman.
    Chairman Ney. Gentlelady from Florida, Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman.
    First of all, I am delighted that you are having this 
hearing, and I want to say just a few kind words about the 
great work that FEMA does.
    Many of my constituents were affected by the many 
hurricanes that hit Florida. One just this weekend was just 
there, and although it hit the Panhandle, certainly parts of my 
district had some high storm surges, I know. I talked to my 
husband, because I wasn't home, and he kept telling me how the 
water was rising, and believe me, I know that my constituents 
appreciate the fact that FEMA is there in time of need.
    I just have a couple of questions about how well you are 
coordinating this mapping with local governments.
    In Florida, as in other States, we have what is called a 
water management district. And the water management district 
has been engaging in GIS mapping for some time, using taxpayer 
dollars that they collect through the water management 
district.
    I want to make sure that in areas where they have 
legitimate updating of the maps, that we are not going to 
reinvent the wheel. So that would be my first question.
    Mr. Maurstad. Very much we are utilizing and leveraging 
those resources at the local level. And, in fact, water 
management districts in Florida are good examples of how we are 
working closely with them to make sure that we are not 
duplicating. In fact, this year I believe that we anticipated 
having participation at the local level and with our partners 
at $45 million and spent $60 million.
    So certainly the funding plan that we have developed 
incorporates the contributions made at the local level and, in 
fact, builds upon them. We couldn't do what we are doing 
without what the local efforts, regional efforts are.
    Ms. Brown-Waite. With all the development that is taking 
place in Florida, it is an ideal place for all the baby boomers 
to retire to--no income tax, usually great weather, except for 
a few months of hurricane problems. But overall, with the 
development that is taking place in Florida, certainly the 
water management districts and local governments that are 
engaging in updating their maps could use some funding.
    Are you helping out the water management districts?
    Mr. Maurstad. Yes. We help them develop plans on how to go 
about participating in the flood map modernization. And we, of 
course, through the State of Florida, provide funds for those 
areas within those management districts for the actual mapping 
and the digitization to occur. So we certainly are doing that 
in Florida.
    Ms. Brown-Waite. I appreciate that.
    The other question that I have is, I had lived in another 
part of another county further inland, and it was questionable 
whether or not I needed flood insurance.
    Could you just estimate initially how many people you 
think, as a result of the remapping, will need flood insurance 
and how many of them who are currently paying for flood 
insurance--excluding me, who moved into a V-zone, so I 
certainly am paying flood insurance--how many people who are 
paying for flood insurance now would be alleviated of that 
cost?
    So those who would be brought on, who would now require 
flood insurance? And those who are paying for flood insurance, 
who may be able to drop it?
    Mr. Maurstad. No, I don't believe we have that information 
at this point in time. And part of the reason why it is 
important this map modernization continues is so that we can 
more accurately determine exactly what the point of your 
question is.
    But I want to take this opportunity to also say we have got 
a circumstance where you have the mandatory requirement--
mandatory purchase of flood insurance, and of course, this will 
affect that, those individuals that would be brought into a 
mandatory purchase zone and those that would be taken out of a 
mandatory purchase zone. But just because you are not in a 
special flood hazard risk area, I would not conclude that you 
no longer need flood insurance, that your risk may not be as 
great as what it was before, but I would contend that the need 
is still there.
    It is going to be less expensive, but I am not--my point is 
this, that sometimes we stay focused solely on the mandatory 
purchase requirement, and those are the people that need flood 
insurance, those that are in special flood hazard zone areas. 
And if you are not in that special flood hazard zone area, you 
don't need flood insurance. I am trying to pop that balloon 
because you still need flood insurance, even though you may not 
be in the highest rated area and you may not be under the 
mandatory requirement to purchase.
    Ms. Brown-Waite. One more question, Mr. Chairman, if I may. 
I know my time has expired. I will just go ahead and ask it.
    Are you going to then notify the lending institutions for 
areas that now, as a result of the remapping, will require 
flood insurance? Because that is a great concern of many home 
owners, that I am not in a flood area now, but I may be, and is 
my bank going to be notified, and am I going to have to 
purchase that?
    In other words, although they have a mortgage agreement 
with a lending institution, could this then be a requirement 
addendum to that loan?
    Mr. Maurstad. Well, the 1994 Reform Act of the NFIP 
tightened up the mandatory purchase requirement so that the 
lenders were paying more attention to this requirement in the 
lending community. So I would say that that is not as a result 
of the Flood Map Modernization effort, but that is just a fact 
of what the law requires them to do before map modernization 
and now.
    But I would say that we work closely with lending 
institutions. I met with those individuals about 2 months ago 
to talk about common interests and work on common solutions to 
difficulties that both of us have. So we have a relationship 
with them. We don't operate in a vacuum, and it certainly is 
important for us to continue to have strong cooperation from 
the lending community in this mandatory purchase requirement 
for the benefit of the people that live in those high-risk 
areas.
    Ms. Brown-Waite. Thank you.
    Chairman Ney. [Presiding.] I thank the gentlelady. And I 
apologize for not being here for most of the time due to other 
commitments.
    I had a question about--and this is something I personally 
witnessed--something we would contact, obviously, FEMA on. 
There are some inconsistencies.
    For example, recently there was a flood area designated--it 
is actually down in Belmont County, Ohio, an area I am very 
familiar with--I was born in the city of Bellaire. Some water 
came up around a road, and now 22 acres have been designated as 
flood prone, never to have flooding, probably can't ever have 
flooding. And then the alternative is a 90-day appeals process 
where you have to disprove that as citizens. Of course, the 
constituents call us. I met on this last Thursday.
    There are a lot of those inconsistencies out there where it 
is not a matter where we argue back, how did you do this; it is 
a matter of why don't you disprove what we had deemed. And I 
know you have had to run up on these, probably, congressional 
inquiries, maybe your office. How do you answer that type of 
thing?
    Is there a better process versus you have made a 
determination? Why don't you prove why you determined that 
versus its coming back on the constituents or local governments 
to say, wait a minute, we have to hire all these engineers to 
say why maybe it was indiscriminately done?
    Mr. Maurstad. Well, I will have to get back to you as to 
when the last time was that this process was evaluated. But I 
would say that there are a variety of ways where that can 
occur--through a letter of map revision, conditional letter of 
map revision. We try to recognize the difficulties that you 
have outlined and yet still not have a process by which 
everyone that does not want to be in a flood hazard area has 
the ability to opt out, so to speak. So it is part of the 
regulatory nature of the situation. We certainly would work 
with the committee and encourage you to get information from 
the residents on how we can make this process better.
    I would allude to a comment that I made earlier, that you 
would not have heard, that our hope is through the flood map 
modernization process that we are able to find partners out 
there at the local level that are able to administer and revise 
these flood maps in this digital environment that would not 
have been possible in the old paper environment.
    So we are hopeful that some of these maintenance issues, 
maintenance circumstances, could be--that that can be carried 
out by the local governments as an important aspect of this 
modernization process.
    Chairman Ney. The other thing that has been raised, to be 
adequate about this, there are going to be companies that are 
out there that say, yes, it is been done correctly, the 
mapping; and other entities, other companies--and you could 
probably find two on each side, three on each side--that are 
going to say the process that is undertaken now is just taking 
the old way of doing it and digitizing the old way.
    And I am sure you have heard that. Do you have a comment on 
that?
    Mr. Maurstad. My comment would be that in some 
circumstances that would be appropriate; if the data that was 
used two decades ago was still accurate, was still pertinent, 
then it would be what we should do. In those circumstances 
where things have changed, then we need to update that data and 
not just merely digitize an outdated map that doesn't have the 
current information.
    So we are committed to making sure that as we go through 
the modernization process, we have quality end products.
    Chairman Ney. One other question I had that--I should know 
this, and I apologize for not knowing it in advance--but North 
Carolina, I am told, has digitized flood maps. We see Mr. 
Jones' family farm that has been there since the 1800s. And in 
Ohio we have got a lot of the old satellite photos.
    I assume North Carolina paid some dollars, or did the Feds 
update North Carolina's system.
    Mr. Maurstad. North Carolina has certainly been very 
aggressive in this environment. They certainly have made 
investments at the State and local level that we, again, are 
utilizing and leveraging as we move forward. So they have been 
a very model partner with the Federal Government in the 
modernization process.
    Chairman Ney. So Ohio and other States that are not up to 
par, as North Carolina is, then they would have to make some 
local investment in it?
    And can we find out--if you can give us information, how 
much North Carolina invested or how much Ohio--I mean, there 
are other States where we have interest. Obviously, I have 
interest in Ohio, but I would like to just know, do you get on 
a Federal kind of list that says Ohio is ready now to invest, 
or how do other States do that? Is there a priority list that 
the States will have to make a certain amount, percentage of 
commitment, do you know?
    Mr. Maurstad. Well, we certainly are working with the 
States. We have the Cooperating Technical Partner program; we 
have over 200 Cooperative Technical Partners that we are 
working with that are making contributions of various levels on 
their own.
    We will provide you that information on a State-by-State 
basis.
    But, you know, we certainly--to those States and areas that 
are moving forward faster, we are certainly not getting in 
their way, we are wanting to assist them as they move at the 
rate that they want to move at.
    Chairman Ney. Just in closing, I think the aim that I have 
in persons representing a district is for the good of the 
Nation, some consistency across the United States. How are we 
going to get to the best mapping and updated mapping? And also, 
what incentives are going to be out there, you know, for the 
States to come in, partnering with the Fed?
    I think consistency would very good.
    Mr. Maurstad. It certainly is a part of our standards and 
guidelines. And I would say that in the case of North Carolina, 
what they are doing is, they are going beyond what the 
requirements are for the National Flood Insurance Program, so 
they are able to utilize what they are doing for other purposes 
and purposes that more specifically meet their needs.
    So it is not that others aren't to that level; it is that 
they are going beyond what the requirements are that are put 
forth in the general guidelines of the Federal Map 
Modernization process.
    Chairman Ney. So we would be able then as individual 
members to receive a breakdown of our States and what Ohio, for 
example, has put in or Georgia--whatever States are requested, 
how much they have put into the system, how much the Feds have 
put in, and what level we are at of modernization?
    Mr. Maurstad. Some of it is a match at the local level, in 
kind; it is not necessarily all hard dollars. Sometimes it is 
utilizing the information that North Carolina or that Florida 
has already generated. They provide us with that data, then we 
are able to put it in the format that we need so that we have 
this uniformity across the Nation.
    We will certainly look to see what we can provide for you.
    Chairman Ney. I appreciate your time on this important 
issue. Thank you so much for your time.
    I would note that some members may have additional 
questions for the panel, which they may want to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions to the 
witnesses, and we will place their responses in the record.
    And we will begin now with Panel II.
    Ms. Brown-Waite. Mr. Chairman, while they are taking their 
seats, I would like to ask unanimous consent to submit an 
opening statement. I was on the floor actually speaking on 
another flood insurance bill.
    Chairman Ney. I want to thank the gentlelady. Without 
objection.
    [The prepared statement of Hon. Ginny Brown-Waite can be 
found on page 53 in the appendix.]
    Chairman Ney. I want to thank the second panel for being 
here today.
    William Jenkins served as Director of Homeland Security and 
Justice issues, U.S. Government Accountability Office. His area 
of responsibility includes emergency preparedness and response, 
elections of the Federal judiciary, sentencing and corrections, 
and bankruptcy.
    Michael Bullock is the President of Intermap Federal 
Services, Inc., a wholly owned U.S. Subsidiary of Intermap 
Technologies Corporation. Intermap is located in 
Englewood,Colorado. Prior to joining Intermap in 1996, Mr. 
Bullock was a senior associate with Booz, Allen & Hamilton, 
Inc., a management and technology consulting firm.
    I will now yield to Mr. Jones to introduce the next 
witness.
    Mr. Jones. Mr. Chairman, thank you very much. And on behalf 
of my colleague, Congressman Howard Coble, I would like to 
welcome and introduce Scott Edelman. He is the president of 
Watershed Concepts, located in Greensboro, North Carolina. He 
is an authority on hydrologic and hydraulic engineering and 
computer programming.
    Mr. Edelman currently serves as the principal in charge for 
the North Carolina Statewide Floodplain Mapping Project. 
Welcome.
    Chairman Ney. I want to thank the gentleman.
    The next witness is Cheryl Small, who is president of the 
National Flood Determination Association, a national nonprofit 
organization comprised of flood determination companies. Ms. 
Small is vice president of Specialty Markets, First American 
Flood Data Services, located in Highlands Ranch, Colorado.
    Jim Williams is testifying today as the cochairman of the 
Mapping and Engineering Standards Committee, the Association of 
State Floodplain Managers. Mr. Williams is a hydraulic engineer 
with the Nebraska Department of Natural Resources in Lincoln, 
Nebraska.
    I want to thank all the panelists for being here today and 
sharing your time. We will begin with Mr. Jenkins.

   STATEMENT OF WILLIAM O. JENKINS, JR., DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Jenkins. Mr. Chairman and members of the subcommittee, 
I appreciate the opportunity to participate in today's hearing 
on Flood Map Modernization. Floods are the Nation's most 
frequent and destructive natural disaster.
    Up-to-date flood maps are a key means of identifying the 
boundaries of the areas at greatest risk of flooding. When we 
reviewed FEMA's Flood Map Modernization program last year, FEMA 
estimated that about 70 percent of the Nation's approximately 
92,000 flood maps were more than 10 years old. Maps must be 
periodically updated because such things as erosion and 
development alter draining patterns and, thus, the boundaries 
of the areas at greatest risk of flooding.
    FEMA develops flood maps to identify areas at risk of 
flooding, determine rates for national flood insurance 
policies, and provide information that can be used for 
floodplain management and mitigation.
    FEMA expects that producing more accurate accessible flood 
maps will produce three major benefits. The first is that 
communities can use more accurate digital maps to reduce risk 
through effectively regulating development in areas of high 
risk. Middleburg, North Carolina, for example, has used revised 
maps to adapt and enforce building standards that it estimates 
will save over $300 million in future flood damage.
    Secondly, accurate digital maps available on the Internet 
will facilitate identifying property owners who are statutorily 
required to or would benefit from purchasing flood insurance.
    Third, FEMA expects that accurate and precise digital data 
will help national, State, and local officials accurately 
locate infrastructure and transportation systems to help 
mitigate and manage risk for multiple hazards. Houston has used 
the digital data from its maps to develop a model for 
projecting the path of a petroleum spill at a Houston oil 
refinery. North Carolina is using the digital data to develop a 
real-time flood inundation model that can be used to identify 
bridges and roads flooded and likely to flood during a storm 
and are, thus, unsuitable for evacuation.
    FEMA faces three principal challenges in its flood 
modernization program. First is developing new, accurate maps 
across communities with different levels of flood risk while 
working with its State, local, and regional partners to 
maximize the effective use of Federal, State, and local 
resources.
    Flood maps are no better than the accuracy of the data and 
analysis on which they are based, but not every area requires 
exactly the same level of data collection and analysis. Areas 
of lowest flood risk will require less intensive data 
collection and analysis than those at highest risk. We 
recommended that FEMA define the specificity and quality of 
data needed for communities with different levels of risk to 
ensure that similar data collection and analysis were done for 
communities in similar risk categories. In its 2004 multi-year 
risk hazard identification plan, FEMA has outlined some of the 
factors that it is going to consider in doing this.
    With regard to resource sharing, FEMA's goal is that 
nationally, overall, its State and local partners will 
contribute 20 percent of the resources FEMA does. Actual 
experience to date across FEMA's ten regions has ranged from 
less than 10 percent to more than 40 percent. North Carolina, 
to date, for example, has contributed about $41 million, or 
about 65 percent of the cost of the flood mapping effort.
    FEMA faces a challenge in leveraging its resources in 
partnership with communities who have few resources and little 
experience with flood mapping. FEMA's November 2004 plan does 
not directly address this challenge and how it plans to deal 
with it.
    Secondly, developing partnerships with participating 
communities, lenders, and other stakeholders that will enhance 
the use of the new maps for mitigation or the purchase of flood 
insurance is a continuing challenge. This is important because 
FEMA has no direct authority to enforce community building code 
and mitigation regulations, and FEMA must rely upon Federal 
regulated lenders to ensure that property owners who are 
required to purchase flood insurance do so.
    The third FEMA challenge is effectively overseeing and 
managing its performance-based flood modernization contract. As 
we recommended last year, FEMA has established performance 
goals for the map modernization project. They include the 
population that has digital GIS data, the percentage of the 
population that has adopted maps that meet FEMA's quality 
standards, the previously mentioned State and local resource 
contribution targets, and appropriated funds sent to its 
cooperative technical partners.
    At the time of our review, FEMA faced a shortage of staff 
with the skills needed to effectively oversee its performance-
based contract for map modernization, although it was making 
efforts to hire such staff. Staff with the appropriate skills 
are key to effective management and oversight of such a large, 
complex contract.
    In conclusion, Mr. Chairman, FEMA has made progress in 
creating a structuring process for effective map modernization, 
but faces continuing challenges in successfully implementing 
this complex program.
    That concludes my statement. I would be pleased to respond 
to any question you or other members of the subcommittee may 
have.
    Chairman Ney. Thank you.
    [The prepared statement of William O. Jenkins can be found 
on page 124 in the appendix.]
    Chairman Ney. Mr. Bullock.

   STATEMENT OF MICHAEL BULLOCK, PRESIDENT, INTERMAP FEDERAL 
SERVICES, INC., AND VICE PRESIDENT, INTERMAP TECHNOLOGIES, INC.

    Mr. Bullock. Mr. Chairman and members of the subcommittee, 
it is a privilege for me to testify on this particular topic. I 
have prepared written testimony that I ask be submitted for the 
record.
    Chairman Ney. Without objection.
    Mr. Bullock. A national strategy is needed for topographic 
mapping to support the flood maps that are being produced under 
the FEMA Map Modernization program.
    In year 2000, Britain faced serious flood mapping problems. 
There was severe flooding that caused over $1.5 billion worth 
of damage. The people there complained that the flood maps were 
not accurate and not only that, but they said that the risk 
that they were paying in terms of their premiums did not 
reflect the actual risk of flood.
    I suspect that many of these themes ring true to you here 
today.
    Now let's fast forward to 2004. Again, there was severe 
flooding late last year, but the new maps that were created in 
Britain accurately predicted the flood extent almost to the 
individual property--
    Chairman Ney. I am sorry, the new maps created in Britain 
by--
    Mr. Bullock. I will get to that in a second, sir.
    How did they get there? How did they get to mapping an 
entire country in a few short years very accurately and very 
precisely?
    The way that that was done is that the largest flood 
insurer in the country, Norwich Union Insurance, recognized 
they needed better topography for the country in order to 
support more accurate flood maps. They entered into a 
partnership with ourselves where we used the latest technology 
to map all of England, Wales, and Scotland--and this we did in 
18 months, which is an unprecedented achievement. We used a new 
technology based on airborne radar that does direct 
measurements of the Earth's topography; it does it very 
effectively and very quickly. And when they produced these 
flood maps, they found that the data is king, that you can't 
produce accurate flood maps without accurate and current 
topography.
    Now in the poster that you see off to the right, that is a 
depiction of the data that we created for England, Wales, and 
Scotland. It is complete; it is accurate; it is current.
    Now today, the U.S. is also updating its flood maps into 
the Map Mod program, and it is an excellent program that will 
benefit our country for many years. However, there are concerns 
that all of us should have in regards to this program.
    For some areas, there are concerns that we are digitizing 
and modernizing old data. And in those areas, particularly in 
the rural parts of the country, the policy of the Map Mod 
program is to update the flood maps using the best available 
topographic data. Well, for much of the country the best of the 
topographic data--
    Chairman Ney. Sorry, just so we follow on track--and we 
won't take this off your time--the first map you had up there 
was Great Britain with the modern mapping. What is this map? 
Because we don't have the screens in the committee here. What 
is this map of?
    Mr. Bullock. This map that you are seeing depicts FEMA 
Region 6.
    Chairman Ney. This is not a mapping; this is just a map?
    Mr. Bullock. The color coding is depicting the USGS data 
that is available for FEMA Region 6. Each color is a different 
era in terms of when it was produced, typically between 1940 
and 1980.
    And that chart speaks for itself. It is a random quilt work 
of various vintages and various accuracies.
    Chairman Ney. This is the map that would be used today, 
then?
    Mr. Bullock. For many areas under Map Mod, in the rural 
areas of the country, yes, the best topographic data is the 
USGS data.
    Chairman Ney. I just want for the members to be on track.
    Mr. Bullock. To use this data with various vintages, with 
various inaccuracies, it brings to mind the phrase, "garbage 
in, garbage out."
    Mr. Chairman, we can and we must do better. The Map Mod 
program has a critical and dramatic need for updated topography 
for the country to support better and more accurate flood maps.
    The next poster which is being shown is of a pilot project 
that we performed with FEMA Region 6 in the Texas area. And in 
that pilot project, it was very successful in terms of 
evaluating new airborne radar data in terms of creating new 
topography to support flood map generation. In comparison with 
the existing USGS data, it found the USGS data to be off by as 
much as 5 feet vertically and 170 feet horizontally; and when 
it comes to updating flood maps, those are huge errors.
    Right now we are engaged--our company is engaged in mapping 
the United States just like we did in Britain. We are going to 
map the entire continental U.S.; we are going to do it in 4 
years. We have already completed Mississippi, Florida, and in a 
few months we will have all of California completed. In the 
next 3 to 4 years we will have the whole continental U.S. 
mapped, the topography mapped, more accurately than has ever 
been achieved, just like we did in Great Britain.
    Now our data alone is not a complete solution for FEMA. We 
recognize that. But for the sparsely vegetated areas of the 
country, roughly 60 percent of the country, it is a very 
effective solution. And then, using airborne LIDAR and other 
technologies for the vegetated areas, we can, in fact, have a 
solution that has accurate topography for the entire country.
    The Map Mod program is in a critical phase right now, where 
many hundreds of counties are going to have their flood maps 
updated. We need to ensure that we are not simply digitizing 
and modernizing old data. And when we are updating the flood 
maps, we need to ensure we are using the most accurate 
topography that our technology or anybody's technology can 
provide.
    And so, to sum up, a national strategy is required for 
collecting this topography to support the most accurate flood 
maps that are possible. Thank you.
    Chairman Ney. I thank the gentleman.
    [The prepared statement of Michael Bullock can be found on 
page 56 in the appendix.]
    Chairman Ney. Mr. Edelman.

STATEMENT OF SCOTT K. EDELMAN, PRESIDENT, WATERSHED CONCEPTS, A 
        DIVISION OF HAYES, SEAY, MATTERN & MATTERN, INC.

    Mr. Edelman. Good morning, Chairman Ney, Ranking Member 
Waters, and members of the subcommittee.
    I am Scott Edelman, president of Watershed Concepts, a 
division of Hayes, Seay, Mattern & Mattern, Inc. I appreciate 
this opportunity to appear before this Subcommittee on Housing 
and Community Opportunity.
    Watershed Concepts has been involved with creating flood 
maps for FEMA since 1984. During this time, I have witnessed 
many changes within FEMA and the flood insurance program. I 
believe the current approach FEMA is taking to produce maps is 
highly effective. Drawing on this experience, I am honored to 
represent Watershed Concepts and to provide testimony on the 
topic of this hearing.
    Specifically, I have been asked to provide my opinion to 
four questions contained in the July 1, 2005, letter from 
Chairman Ney to me. I have supplied detailed answers to the 
committee before giving this testimony, and I am summarizing my 
responses as follows.
    The first question deals with how important is it for FEMA 
to keep the maps up to date and what are the negative 
consequences of delaying map modernization? I believe it is 
critical to keep the maps up to date and detrimental to the 
country if the maps are not kept current. The maps provide 
protection for 4.5 million policyholders and provide 
approximately $650 billion in coverage, with annual flood 
damages of approximately 1.1 billion.
    If the maps are not updated, then the annual cost is likely 
to increase for two reasons. First, FEMA has not studied every 
stream in the Nation; FEMA has only studied about one-third of 
the streams. Many of the unstudied areas are on Federal lands 
and are unlikely to be developed. However, because of 
population growth and shifts in the Nation's population from 
one region to another, development will occur in areas that 
were not previously anticipated for development.
    Second, as the watershed develops, more parking lots, 
building and road construction occurs. This creates additional 
storm water runoff that under natural conditions would have 
been absorbed by the soil. We have performed studies that show 
watershed development can increase water surface elevations 
along flooding sources by more than 10 feet. I believe that 
these are the two reasons why it is critical to keep the maps 
current.
    The second question dealt with who decides which maps would 
be modernized and is the process sufficient. I observed that 
FEMA headquarters sets national policy with map modernization 
being implemented at the ten FEMA regions. Each region obtains 
considerable input from the States and local communities, but 
FEMA decides when the study will be performed and the scope of 
the study. If the community wants to take on additional 
responsibilities once FEMA has made the basic decisions, it 
does allow for delegation of portions of the program to the 
partner. I believe this is an effective means to manage the 
program.
    The third question dealt with the use of USGS maps as the 
best available topographic information. FEMA has strict 
guidelines and specifications for performing studies. These 
guidelines state that USGS quadrangle maps cannot be used for 
detailed study areas. These are medium- to high-risk flood-
prone areas.
    We do, however, consider USGS quadrangle maps for areas of 
low-risk flooding. These are typically rural America where 
growth is very small or negative and the population densities 
are small. We have performed pilot studies in these areas with 
emerging technologies to determine if a better product can be 
created within the limits of the set budget. These emerging 
technologies do offer the hope of creating a better flood map, 
but issues such as data licensing and evaluation of the actual 
benefit in low-risk areas may need to be done.
    The fourth and final question dealt with FEMA's overall map 
modernization strategy. I have observed FEMA performing a 
comprehensive nationwide approach, upgrading standards, and 
evaluating new methodologies and technologies that may benefit 
the program. I believe that modernization is being effectively 
managed.
    I want to again thank the subcommittee for this opportunity 
to address the members concerning this important topic. I am 
honored to be able to provide testimony as the subcommittee 
considers the most efficient methods to prevent or reduce 
flooding losses. I would be happy to answer any questions that 
you have, and with the permission of the committee, I would 
like for the detailed responses to my questions to be entered 
in the record.
    Chairman Ney. Without objection. Thank you.
    [The prepared statement of Scott K. Edelman can be found on 
page 107 in the appendix.]
    Chairman Ney. Ms. Small.

     STATEMENT OF CHERYL SMALL, PRESIDENT, NATIONAL FLOOD 
                   DETERMINATION ASSOCIATION

    Ms. Small. Mr. Chairman, Ranking Member Waters, and members 
of the committee, thank you for your time to speak.
    I am representing the National Flood Determination 
Association, and that is a professional association of 
companies which provides flood zone determinations to lenders 
for compliance with the mandatory purchase requirements of the 
NFIP. The association represents some two-thirds of the 
industry and is probably the most frequent user of the flood 
maps, with approximately 33 million determinations completed 
for lenders in the year 2003.
    The NFDA is gratified that the Administration has 
recognized the real need to update and modernize the flood 
maps. I would like to convey to this committee NFDA's full and 
complete support for the Map Modernization initiative. Seventy 
percent of the flood maps are 5 years and older, with 57 
percent at least 20 years old. And several thousand flood-prone 
communities remain without flood hazard maps. About 20,000 maps 
require updates since they have outdated or inadequate flood 
hazard data.
    In the near term, many of the new maps will be just a 
digitized version of the current updated flood map. In those 
cases, the maps will not incorporate Letter of Map Amendment 
updates. If the Letter of Map Amendment update revalidation 
process is delayed, then home owners may have to seek insurance 
coverage when, in fact, their property has been exempted from 
the mandatory purchase requirement.
    In 2004, 40,000 Letters of Map Amendments were issued. In 
recent years, processing these consumed about 80 percent of the 
funds from mapping fees generated--for mapping generated by 
fees. When a revised map is issued, enormous cost is incurred 
by all parties as it initiates the life of loan tracking 
processes and procedures developed by lenders and flood 
companies to ensure compliance with flood regulations and 
secondary market requirements. This process involves 
notification to lenders by flood determination companies and 
then lenders contacting borrowers and home owners regarding 
insurance-related matters. In 2003, our industry was tracking 
97 million loans for map changes.
    Flood determination companies are in a somewhat unique 
position of understanding the issues involved with the 
development and deployment of the maps. We have regular 
communication with home owners and lenders who are directly 
affected by the release of new maps into the communities. In 
2003, our member companies fielded in excess of 1.3 million 
calls from home owners and lenders discussing compliance and 
mapping-related matters.
    In 2003, we organized the technical mapping meetings with 
FEMA, NFDA, and FEMA's mapping partners. This forum was created 
as a way for all parties to discuss and resolve technical 
mapping issues, receive updates on the progress of map 
modernization, and voice any concerns about the direction of 
the program.
    FEMA and their mapping partners have gained a better 
understanding of how the determination industry uses the flood 
maps and how a seemingly minor change on their part can have 
significant impacts to lenders and borrowers, as was played out 
with the North Carolina paneling schema. At this point, it is 
not clear whether our input has been taken into account, and if 
it has not been, then there could be serious problems for our 
industry lenders and their borrowers and their home owners.
    We understand that meetings have taken place concerning 
some important items for our industry, but we have not received 
information on the outcomes. If the determination industry is 
not kept in the loop on these matters, the result would be a 
slowdown in the closing of real estate transactions.
    NFDA is concerned that all involved appear to be focused on 
fulfilling the program metrics rather than considering an 
adjustment of the time and money needed to produce accurate 
digital maps based upon updated topographic base data and 
updated flood studies. Map modernization is more complex, 
extensive, and costly than originally estimated. Updates 
require more time and investment, and this raises a concern 
that insufficient analysis is being undertaken in order to 
complete actual amounts more quickly. Until the program was 
under way, certain factors affecting costs and time estimates 
were not realized.
    We would not want the new maps to be simply digital maps 
produced from existing flood information. To do justice to the 
national investment and good flood-risk maps, there may need to 
be some adjustments to the quantitative standards by which the 
program is evaluated, and it may not be possible to complete 
the job in the projected 5 years.
    NFDA applauds FEMA's commitment to produce easier-to-use 
and easy-to-update digital maps. We expect a significant number 
of maps to be released under the Map Modernization initiative 
in September. And once we begin to work with the new data, we 
will have more facts on which to base our opinions on whether 
map modernization is achieving its goals.
    We would appreciate an opportunity to address this 
committee in the future about the issues that may reveal 
themselves over the course of the next few months. NFDA 
recommends that FEMA establish an stakeholder advisory group 
and model it after the successful Technical Mapping Advisory 
Council established by the Flood Insurance Reform Act of 1994.
    That concludes our testimony.
    Chairman Ney. Thank you.
    [The prepared statement of Cheryl Small can be found on 
page 154 in the appendix.]
    Chairman Ney. Last witness, Mr. Williams.

    STATEMENT OF JAMES R. WILLIAMS, COCHAIRMAN, MAPPING AND 
     ENGINEERING STANDARDS COMMITTEE, ASSOCIATION OF STATE 
                   FLOODPLAIN MANAGERS, INC.

    Mr. Williams. Thank you, Chairman Ney, Ranking Member 
Waters, members of the subcommittee.
    My name is Jim Williams. I am the project manager for 
Nebraska's floodplain mapping program.
    Just to give you an idea of where we are coming from, we 
have mapped more than 10,000 miles, stream-miles, in the State 
of Nebraska, and we have mapped it at the lowest cost in the 
Nation. And I am here testifying on behalf of the Association 
of State Floodplain Managers.
    I am going to address all four of the bullet points, the 
questions that were in our invitation letter.
    The first question was, how important is it to update the 
flood insurance rate maps? The sad truth is, it is not 
important to anybody until our next flood. People have very 
short-term memories when it comes to disasters; however, after 
the next flood people are going to want to know yet again how 
did it happen, why wasn't I warned, who is going to pay for my 
losses. And we all know who they are going to be writing and 
calling when that happens.
    So the NFIP protects citizens and their property from 
losses due to flooding. Map Mod is in the process of making 
maps so people can be aware of what their risk is.
    The second question was in reference to who makes decisions 
about what projects go forward during any one fiscal year. I 
have got kind of a two-part answer to that. Overall, it is the 
FEMA regional engineers and the various regional offices that 
make those decisions. During early years of Map Mod, we believe 
some serious mistakes were made. The emphasis was based on 
hitting populations in counties with high populations, and so 
populous counties with acceptable paper maps received new Map 
Mod funding, while new, completed county-wide studies could not 
move forward; they sat on the shelf waiting for publication 
money.
    In the State of Nebraska, we had over a dozen completed 
studies that were delayed 1 to 2 to 3 years. We couldn't hit 
the print button because we were throwing big dollars at 
Lincoln and Omaha, which already had useful paper maps.
    However, I do want to emphasize, we believe FEMA is getting 
back on track on this. They are making decisions in more of a 
partnering mode. Regional personnel are working with State and 
local authorities to properly prioritize what projects move 
forward.
    The third question was, what value is there in comparing 
flood zones to 40-year-old USGS topo maps? Well, I believe that 
this guidance, which is in section 7 of FEMA's plan, 
Multihazard Implementation Plan, was written to address two 
things. First of all, you can quickly judge the quality of a 
map by superimposing it on one of these old topo maps. If it 
doesn't fit the old topo map, you have no business digitizing 
that old map. If it is bad enough, throw it out; do a new 
study.
    Secondly, many study contractors insisted they could 
delineate Approximate Zone A flood zones on digital elevation 
models. Well, the problem is that the DEMs are derived from the 
USGS topo maps; therefore, the quality is degraded. DEMs do not 
represent the best available topo. Based on my experience, the 
topo maps are adequate for modeling and delineation in rural 
areas. They should be double-checked in towns. They are not 
accurate enough for detailed studies. And the topo requirements 
are very clearly spelled in out in FEMA's guidelines and 
specifications.
    The fourth and the last item was a request for an overall 
assessment of FEMA's Map Mod strategy. Overall, I am going to 
give FEMA a thumbs-up on this issue.
    I could talk to you all day long about some of the good 
things that are happening with Flood Map Modernization, but I 
am close to out of time, so I am going to mention the one main 
thing I want to leave with you: There isn't enough money.
    We now know that $1 billion is not going to do the job; it 
is going to take maybe three times that amount, based on State 
business plans. You might be asking, are we looking for gold-
plated maps? No. We are looking for just a simple, usable map 
that passes what we call the red-face test. How did we get the 
numbers so wrong? There are lots of reasons, but quite frankly, 
we didn't know how bad the maps were. We had to go into Map Mod 
1 to 2 years to start seeing some of these things come out. And 
we now know that it is going to take probably $3 billion to do 
the job that our citizens need to have done.
    Thank you for your time.
    [The prepared statement of James R. Williams can be found 
on page 160 in the appendix.]
    Chairman Ney. Thank you.
    I want to ask you a question based on something you said 
about--from my understanding what you are saying is, we don't 
need gold-plate mapping everywhere. Also, in the rural areas, 
who would determine and separate out--let me give you an 
example.
    There are some areas where nothing is developed, nothing 
has changed, so therefore one would say, well, we don't need 
the gold-plate mapping in that area because there is not enough 
money. But what do you do in some of the rural areas--I will 
give you an example where we have had long--are you familiar 
with underground mining? And in underground mining, they don't 
have to get rid of you to permit. They go under your house, and 
as you know, sometimes it disrupts an aquifer, it disrupts 
flows, and you could have different patterns which might affect 
a creek, and you might have flash flooding where you never had 
it before. But technically, to the eye, you don't have any type 
of development in that area, but you could have a situation 
which could create possibly some changes that might lead to 
flooding or redirection of creeks or something like that. As 
you know, that could happen with that.
    Now how do you separate that type of area out, that it 
doesn't need maps, from an area that does need maps? How would 
do you that in rural areas? I mean, I understand in the desert 
you don't need probably million dollar mapping, because what is 
going to change there, particularly, but--
    Mr. Williams. The short answer is, we don't know. Let me 
give you a little bit more on that.
    My subcommittee with the State Floodplain Managers is 
actively addressing this, and we hope to work in partnership 
with FEMA. We know that we don't need to map large portions of 
national parks and other Federal properties, bombing ranges.
    It is my opinion that every town needs a map. Some people 
within FEMA are not yet convinced that every town needs a map. 
Their point is if you are not in the National Flood Insurance 
Program, you don't deserve a map.
    Well, we have got a chicken-and-an-egg problem here. Many 
communities in Nebraska haven't joined the program because they 
don't have a map; they don't know they have risk. So my opinion 
is, every incorporated community, and perhaps some zone outside 
of that community, needs, at a minimum, an Approximate Zone A 
map.
    My next point is that areas that are growing need a 
detailed study. Overall, there is huge cost savings when 
developers know exactly what the risk is in those areas. But 
there is that gray area that is in between communities and 
growing areas versus the Federal lands, and that is something 
we have got to hammer out together. We haven't answered that 
question.
    Chairman Ney. That is a good, honest answer. You don't have 
the answer yet, because I can think of other places in the 
district where we have bedroom communities--now Columbus, Ohio, 
that did not have huge development, and now they have constant 
development because people are living there and working in--for 
example, in Columbus, Ohio, so that is creating more runoff, 
water runoff, things that we haven't dealt with before.
    I guess what you are saying is, we don't know yet how to 
separate out; this doesn't ever need mapping for the short term 
and this does. We still just don't know how to do that.
    Mr. Williams. That is correct.
    There is another aspect I would like to introduce to this. 
I think that every community that gets a floodplain map, 
obviously that panel is going to get published. There are going 
to perhaps be large portions of that panel not close to the 
community. How are we going to map those? If it is Zone D, 
unstudied, the insurance is going to be pretty expensive there. 
Are we going to map it as shaded Zone X?
    My point is that it is a very complicated question, and it 
has huge fiscal impact.
    Chairman Ney. Mr. Jenkins, the question I have, are most 
people, do you think, generally--are aware, unaware, whether 
they have to get flood insurance? Is there a consistent 
mechanism where people know, yes, that they are aware that they 
have to have flood insurance or not, or should have it or not?
    Mr. Jenkins. I think they--the answer to that is, no, in 
terms of consistency. In prior work that we have done, there 
does seem to be a problem.
    As you know, mortgages shift--mortgage servicers shift from 
the original person you get the mortgage from; somebody else 
takes it over. And there seems to be problems there with 
consistency in terms of them knowing that this person needs 
flood insurance. So there seems to be some problem in whether 
or not people really do know.
    There are some examples in the current flood mapping 
process where they have taken quite a bit of trouble to try to 
notify people when a map has been proposed to send notification 
to every person that would either come into the floodplain and 
would have to be required to purchase flood insurance or would 
move out of the floodplain and would not be required to buy 
insurance.
    So that is an important part of the flood mapping process, 
that at the time that the map is proposed and sent out that a 
company notify everybody that would be affected by a change in 
the boundaries.
    Chairman Ney. Thank you.
    The gentlelady from California.
    Ms. Waters. Thank you very much, Mr. Chairman.
    Mr. Bullock, am I to understand that you are representing 
here today that you have the state-of-the-art technology by 
which to do mapping in a way that would give us the information 
that we need in order to determine whether or not we need to 
change the maps that are not used--the old, not digitized, just 
old data? Is that what you are telling us?
    Mr. Bullock. That is correct. And again, we are not a 
solution for the entire country, but this is what we learned 
again in Britain. The existing Government topographic data was 
not good enough to have consistent, accurate flood maps for the 
entire country. And so that is when our technology was 
employed; and in 18 months we mapped all of England, Wales, and 
Scotland to a very consistent and complete topography that was 
then later used to generate new flood maps for those three 
entire countries.
    And as a result, 600,000 properties were now available and 
qualified for flood insurance. Premiums for many of those 
property owners have decreased or gone away entirely. And so 
Britain is now the most accurately flood-mapped nation on the 
face of the Earth. And there is an opportunity to employ those 
same practices and technologies here for much of the country to 
improve the topography--again, topography that data is king in 
terms of the accuracy of the resulting flood maps.
    Ms. Waters. So are you contracting with FEMA now for 
anything?
    Mr. Bullock. No. FEMA Region 6 did sponsor a small pilot 
study in Texas which--I showed you the results in my 
testimony--which was very successful. As of right now, we don't 
have any contracts with FEMA, although Region 6 has expressed 
interest in not using the USGS data as a result of that pilot 
study and in using our data in certain counties. But right now 
we are not under contract.
    Ms. Waters. I see. I guess--I don't know if this is an 
appropriate question or not to Mr. Jenkins.
    Are you familiar with Intermap Federal Services, Inc., of 
Englewood, Colorado?
    Mr. Jenkins. No, not really. I did have some information 
that they sent me about what they do and what their product is 
and so forth, but we are not particularly familiar. And in the 
work we did, we didn't really assess different technologies and 
the merits of different technologies for mapping.
    What we did focus on is consistency and approach and making 
sure that they have some way of identifying and assessing that 
the maps are accurate and that they are accurate for the 
purpose of which they are intended, which is identifying 
accurate flood boundaries.
    Ms. Waters. Well, the question that appears to surface here 
today is whether or not we are going to digitize old 
information. What do you think about that?
    Mr. Jenkins. Well, I think there is an issue that hasn't 
been raised about digitizing old maps, existing paper maps.
    Assuming, as Mr. Maurstad said, that one has determined 
that that data is still sufficiently reliable in terms of 
identifying floodplains, there is the potential that the map 
itself has errors in it, that is, that the data from the survey 
was transferred onto the map, errors were made doing that. So, 
at the very least, if you decide that that map is sufficient 
and you have done an analysis to decide that the map is 
sufficient, you need to at least make sure that you are 
digitizing correct data, that you are not digitizing errors 
that were inadvertently placed on the map to begin with.
    Ms. Waters. Are you convinced--while you said you did not 
look at the technology, you haven't evaluated the technology 
that is being utilized to determine whether or not they can get 
the correct information to make the corrections. Is that a fair 
statement?
    Mr. Jenkins. That is right. We did not really look at the 
technology. We did visit a number of locations that were doing 
Map Modernization, that used extensive LIDAR in both North 
Carolina and Houston. Most of that LIDAR was paid for locally, 
not by FEMA. So we looked at the kinds of technologies that 
they were using, but we didn't assess whether or not they were 
the right technologies.
    Ms. Waters. I see.
    May I just ask Ms. Small and Mr. Williams, do you know 
anything about this technology and whether or not we are using 
the appropriate technology to get the information to make sure 
that we are not digitizing old maps?
    Mr. Williams. I do believe that we should look closer at 
it. We would like to evaluate some of the data from the pilot 
study. I would like to try out my own software and tools on 
that data.
    There are large portions of Nebraska for which this 
technology appears that it would be useful. It is--as Mr. 
Bullock said, it is not appropriate everywhere, and I 
understand this. Understand that in Nebraska we are in a unique 
situation in that we have the USGS contours already 
electronic--"in the can," so to speak. There are large portions 
of the country where the cost of moving from paper to the 
computer is equivalent to the cost of getting brand new data 
from this new technology, and in those areas it should be 
looked at more closely.
    Ms. Waters. Ms. Small.
    Ms. Small. I am not familiar with the technology from 
Intermap, but we do--as an organization that uses the maps 33 
million times in 1 year, we do realize the importance of having 
the latest, updated topographical-based data because it 
certainly allows us to make accurate determinations that are 
rendered of whether a home owner is required to have flood 
insurance in response to the mandatory purchase requirement.
    Ms. Waters. Mr. Chairman, I don't think there is anyone 
here who could answer for me whether or not the cost of new 
technology that may be much more accurate than what we are 
using now is prohibitive or whether or not the amount of 
dollars that is allocated toward the remapping would be 
sufficient to pay for this technology, but I think it is 
something we need to find out about.
    Chairman Ney. Homeland Security--or can anybody answer 
that?
    Ms. Waters. Mr. Bullock.
    Mr. Bullock. The current practice in rural parts of the 
country for developing new topography is done county by county 
in cooperation with local communities, and it is a good thing 
to cooperate with the local communities. But to map a country 
county by county would be like carpeting your home 1 square 
foot at a time, buying that carpet from different stores and 
then piecing it together.
    There are economies of scale when you employ new technology 
to map entire States, entire countries, do it simultaneously 
instead of over decades; and that is what we did in the U.K. 
And that is what I talk about, when we need a national strategy 
to collect this topographic data to support the Map Mod 
program.
    We need to do that; we need to start it now because when 
you consider the schedule and the course of the Map Mod 
program, it is unlikely they are going to avail themselves of 
this type of technology on a wide scale practice before the 
program is done, and we will end up with a lot of new flood 
maps based on old and inaccurate data.
    Ms. Waters. How many companies are there that do what you 
do? Do you have any idea?
    Mr. Bullock. Currently, we are the only company that uses 
this technology specifically for flood mapping. But again, we 
can't do the whole country for flood mapping accuracy. We have 
a solution that we believe fits for about 60 percent of the 
country, the agriculture and sparsely vegetated, but that is a 
good start. And then, using other companies that have LIDAR and 
other technologies, we can, in fact, develop a national 
topographic database just like was done in the U.K. and again 
have the most accurate flood maps on the Earth.
    Ms. Waters. Well, you answered my question, because that is 
precisely where I was going, whether or not you in cooperation 
with other companies could put together that kind of a strategy 
that could be looked at for dealing with what I think is a very 
complicated problem that we really don't have a handle on.
    I have not been satisfied, just listening today, that we 
will not be simply digitizing our maps. I think--the testimony 
we have heard leads me to believe that that is precisely what 
we are going to do unless we come up with a different, more 
comprehensive strategy that perhaps everybody here is 
suggesting in one way or the other, and I am certainly 
supportive of that, yes.
    Mr. Williams. Ms. Waters, if I may, I have to emphasize 
that it is not FEMA's task or duty to come up with topographic 
data. It is not cheap, and it is not particularly easy, 
especially on a piecemeal basis.
    But trying to do flood maps without good topographic data 
is like trying to clean the room without the lights on; it is 
like trying to drive without headlights. It is the fundamental 
basis of what we are about here, and however we get to it, we 
need to have a good strategy for accurate topo delineations in 
towns and in rural areas. And there are various costing levels 
that are appropriate.
    And I don't know the answer of how to fund that, but you 
have hit on the key item here, yes.
    Ms. Waters. Thank you very much, Mr. Chairman.
    Chairman Ney. Thank you.
    The gentleman from New Mexico, Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    I was close to Sonora, Texas, a couple years ago, and the 
water was running about 11 foot deep, and it was over the 
overpass there along the main highway.
    In my own hometown a couple years ago we typically hit 9 
inches of rain a year. We got that all in about 45 minutes, and 
it washed the pavement out of many of the streets in town.
    So when we want to disregard the flat desert, it is not. 
Mr. Bullock, what was the cost of providing the maps to 
Britain.
    Mr. Bullock. We did that in a partnership with Norwich 
Union Insurance where they provided about half--
    Mr. Pearce. I just wondered the total cost if I wanted to 
get a comparative basis.
    Mr. Bullock. The total cost was approximately $7 million, 
and the area that was mapped is roughly 1/40th the size of the 
continental U.S.
    Mr. Pearce. So for $280 million, do you think you could do 
that?
    Mr. Bullock. That includes the topographic mapping as well 
as all of the flood mapping, creation of the new flood maps. 
Now they use a different technique than what FEMA contractors 
would use, but that is roughly what the level of investment 
was.
    Mr. Pearce. Do you think for 280 million you might be able 
to do the U.S.?
    Mr. Bullock. I would just speak to the topographic portion 
of that, since I don't do the creation of the flood map--
    Mr. Pearce. That is all right. The FEMA made a comment that 
you are willing to sell maps, but are not willing to allow the 
public use of these maps. What is that all about?
    Mr. Bullock. Well, the reason why we are able to do it so 
inexpensively is we license the data. We are going out and 
mapping the United States right now using our own investment, 
and then we spread the cost of that data across multiple users 
and multiple agencies.
    Mr. Pearce. And every time they access it they pay a fee or 
something?
    Mr. Bullock. No. Once they buy a license they have that in 
perpetuity. They can use it--
    Mr. Pearce. What would a small town pay for a license, say 
a town of 12,000 in New Mexico?
    Mr. Bullock. Well, typically it is only $10 a square 
kilometer. A small town might be 500 square kilometers, so it 
might be $5,000. Very affordable.
    Mr. Pearce. Mr. Jenkins, as we discussed the whole process 
of FEMA, does FEMA ever pay claims? People rebuild and within a 
year or two they pay the same claims on the same spot?
    Mr. Jenkins. Yes, they do. They do.
    Mr. Pearce. How does that work? I thought FEMA in previous 
testimony, their idea was to get protection and tell us where 
not to build. How does it--
    Mr. Jenkins. Where not to build. We did testify, and I have 
some information I can share with you for the record about 
repetitive loss properties. But that is the issue. There are 
properties where--repetitive loss properties are primarily 
located in Texas and Louisiana. They are more in those two 
States than any other places. They are places that have filed, 
you know, more than one loss. In some cases, the loss is 
greater than the value of the property; that is, the payouts 
are greater than the total value of the property.
    And of course that was one of the things the Flood 
Insurance Reform Act of 2004 was designed to try to address was 
repetitive losses. But they are a big problem, and they are a 
major portion of the total payout in flood insurance.
    Mr. Pearce. Does FEMA have a process to identify if they 
get multiple claims?
    Mr. Jenkins. Yes. It a process for that.
    Mr. Pearce. And does the process then begin to limit that? 
How--in other words, I watch--I don't live on the coast, but I 
watch all the TV with houses being washed away from the 
coastline, and yet it appears when I go to the coast those 
things are rebuilt. 
    Mr. Jenkins. There is a point at which you are not eligible 
for disaster assistance because of that and other things as a 
way to encourage you to either elevate the property or move out 
of the floodplain.
    Mr. Pearce. What is that point, that point of 
discouragement?
    Mr. Jenkins. I don't exactly remember. I have it in my 
office--
    Mr. Pearce. If you would submit that it would be 
interesting to see that because it to me seems a lot of times 
we simply do the same things over and over again, and I would 
appreciate that.
    Mr. Jenkins. I will send you that information.
    Mr. Pearce. I see my time is about to elapse, Mr. Chairman. 
Thanks.
    Chairman Ney. Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Chairman Ney. I appreciate the 
testimony of everybody on the panel. I know that those of us 
who represent districts who are victimized by habitual flooding 
find your information very helpful. It also sounds like 
everybody agrees we need better coordination with our local 
partners, with our State governments and local governments. I 
know as a county commissioner for Bucks County, Pennsylvania, 
for 10 years, every week county governments and local 
governments are signing contracts to not only update their 
flood maps, but they are signing contracts for high resolution 
aerial photography. They are buying new hardware, upgrading 
their software, GIS systems. And in my view, we need new 
incentives and better incentives with local governments.
    I was wondering if anybody on the panel has any suggestions 
for new incentives that the Federal Government could use that 
would draw in that new data that is being generated every 
single day and recognizing as we create a new incentive and 
part of the incentives may be to, you know, to encourage local 
governments to use not only Homeland Security dollars, Federal 
dollars, and State dollars, but start using some of their own 
local resources, which many governments are willing to do, use 
their own local resources and maybe move those governments to 
the top of the list for quicker flood map modernization. And if 
you do that, again, you have to recognize--and I heard a little 
bit today about standardization. I am looking at that map down 
here, and that is everything but standardization. But the fact 
is that there are 3,000 counties in the United States, and all 
those counties have their own contracts and they are getting 
different kinds of data.
    So on the one hand, we all appreciate the benefits of 
standardization. We have to recognize there are local 
governments and county governments out there getting their own 
data and different kinds of resolution of data, and so what 
kind of incentives can we give local governments to spend some 
of their own dollars so that with the $1 billion we talked 
about--and, Mr. Williams, I think you indicated that is not 
enough--encourage the local governments to help out, and what 
does that do to standardization and flood mapping around the 
country?
    To any of the members of the panel.
    Mr. Edelman. Maybe I can go first. FEMA is embarking upon a 
digital system, and they are putting all their information into 
a managed information platform, mapping information platform, 
MIP, mapping information platform. This allows data to be built 
upon. So that, for instance, in your Bucks County, if they came 
up with better topo information after FEMA has done their study 
they will be able to incorporate that information easier and 
update the flooding information more efficiently and faster as 
time goes on.
    So there has been a lot of talk about how we are going to 
move forward. What I believe FEMA is doing is FEMA is getting 
us to that base layer of instead of getting us out of the paper 
world and into the digital world such that once you are in 
digital world updates become a lot more efficient and a lot 
more effective and a lot more timely as new information becomes 
available. There are plenty of counties across the United 
States that get new topo information once every 2 or 3 years, 
and it would be really nice to be able to update the maps in 
these growing areas to do that.
    So a lot of emphasis is going on on how the partnership can 
work with local communities to take this data in to provide the 
updates.
    Mr. Bullock. If I might respond. Again, I think it is 
important to cooperate with the local communities, but to rely 
on them to provide the topographic data on a county by county 
basis, I believe that is a flawed approach.
    If that was the approach we had taken in the United 
Kingdom, we would still be talking about the program instead of 
already having the best flood maps that exist.
    I believe that a lot of the initial reliance on the local 
communities was due to budget concerns and trying to help them 
fund the collection of this data, but with new technology that 
exists today that is no longer as much as of a problem because 
we can, in fact, collect data for the entire country in just a 
couple of years. And it would be consistent, complete. Instead 
of having a patchwork that you see on that poster there, you 
have a consistent database. And then you share that with the 
local community so they have the access to that high accuracy 
data as well.
    Thank you.
    Mr. Jenkins. I think one thing in our work that we noticed 
is that it really does help; it is not so much giving the 
community an incentive but it is an understanding of how the 
digitized data can benefit them and the things that they can 
use it for.
    One of the things that they can use it for is emergency 
planning. Houston has been using their data to be able to 
deal--for quick response model and do a quick response under 
different conditions; that is, you know, high or low tide, et 
cetera, for hazardous waste spills in Houston's ship channel, 
and to be able to then develop evacuation plans on the basis of 
that; that is, that it is going to be here in an hour and we 
need to get these people out because it has this lethal plume 
and the topographical data then can be used for plume analysis, 
for things like chlorine emissions, a tanker car that has 
liquid chlorine in it and gets breached.
    So there are a number of things that it can be used for 
that are beyond flood mapping. That is more difficult for them 
to use it when it is not digitized because the location of the 
particular facilities is much less precise. You can use it, as 
North Carolina is, to try to identify evacuation routes in 
areas that are likely to be flooded so people are not going to 
be able to get through and get away from the coastal areas. 
They are developing a realtime Web based flood inundation 
system that can be used and that can be accessed by radio and 
television stations: Don't go to this bridge; don't go to that 
road; it is going to be flooded; you can't get out that way.
    So the more they understand the multiplicity of uses the 
data has for them, the more likely they are going to be able to 
see value in it.
    Mr. Fitzpatrick. Mr. Chairman, I see my time has expired.
    Chairman Ney. I have a question, and after that if either 
gentlemen would have other questions, please feel free.
    I just want to see if I am on the right track of the 
thinking here. Basically, Mr. Bullock, you are agreeing--or Mr. 
Williams agreed with you--that there are certain or--I am 
sorry. You are agreeing with Mr. Williams. I assume there are 
certain portions of the country that just cannot be mapped. Is 
that correct?
    Mr. Bullock. No.
    Chairman Ney. I mean cannot be mapped as accurately as 
other portions. Because you see 16 percent.
    Mr. Bullock. Yes, and that is for our particular 
technology. And there are other technologies again that need to 
be part of the solution such as airborne lasers, and so forth, 
but--
    Chairman Ney. I am sorry, maybe Mr. Williams said there 
wasn't enough money to map correctly--I mean, to map 
everything. Is that correct?
    Mr. Williams. There is two types of mapping I think that we 
are discussing here. For topographic mapping, some other 
technologies other than radar may be more appropriate, such as 
laser methods or advanced photogrammetric methods. The other 
mapping would be the floodplain mapping itself. And my point is 
perhaps we do not need to do floodplain mapping in Federal 
areas. We should concentrate on towns and elsewhere.
    Chairman Ney. So, Mr. Bullock, I am assuming you cannot 
probably accurately map forests in certain regions. Is that 
correct?
    Mr. Bullock. That is correct.
    Chairman Ney. Go back to the question about natural 
forests. Should we even map them in the first place with the 
most up-to-date technology?
    Mr. Bullock. And that is fair. That is a fair statement. 
But I would add that, for example, in Ohio, we looked at--it is 
our understanding that there is no plans for your particular 
district, Mr. Chairman, for collecting extensive new 
topographic data, whereas technology such as ours could map it 
very quickly, very completely, to produce better and more 
accurate flood maps for that entire congressional district. And 
under the current progress of the plan I don't see that 
changing unless this committee takes some action to change how 
we collect our topographic data on a nationwide basis.
    Chairman Ney. Following up on that, let me ask Mr. Jenkins 
a question appropriate for you.
    Based on what Mr. Bullock just said, is it FEMA's 
responsibility to, you know, update areas like my district or 
the State of Ohio or other States? Is it their responsibility.
    Mr. Jenkins. It is definitely FEMA's responsibility under 
the Flood Mapping Modernization Program to determine what the--
they have put every county into a risk category, and to 
determine for those risk categories what the appropriate level 
of analysis is for those different categories, what is the type 
of data that is needed, what is the specificity of data that is 
needed, what is the quality of data that is needed in order to 
produce a flood map of, quote, acceptable quality, and it is 
also FEMA's responsibility to define what "acceptable" is. So 
in that sense it is their responsibility.
    Chairman Ney. Just for my own clarification, Mr. Edelman, 
do you use a different, your company use a different technology 
than Intermap?
    Mr. Edelman. We are an engineering firm that utilizes the 
products of Intermap and other companies, and we are the 
company that actually did the pilot for FEMA utilizing 
Intermap's data in Texas.
    Chairman Ney. You utilized Intermap data?
    Mr. Edelman. Yes, we did.
    Chairman Ney. So the two companies worked together to 
produce a product?
    Mr. Edelman. Yes, we have. It is my opinion that the data 
that Intermap is providing would be useful for the program, 
anywhere from west of the Mississippi and east of the Rocky 
Mountains, about the same area that Mr. Bullock had mentioned. 
However, in all these areas we are talking about we have to 
come back that FEMA will not use USGS quads in any areas that 
are medium or high risk. In those areas we are currently 
working on perhaps maybe 60 or 70 active countywide studies. We 
are not using any USGS quads in any medium or high risk area.
    Chairman Ney. I am sorry. What does that mean?
    Mr. Edelman. Okay. FEMA has ranked--there are about 3,100 
counties across the Nation. Okay? And there are different areas 
within counties that you can get a risk classification on. The 
higher risk is the number of people who live in the floodplain, 
the density, number of policies, number of flood damages, 
things of that nature.
    The USGS topo maps are only considered for the very lowest 
of low risk categories, okay. These are counties that have 
declining populations or almost no population at all, and that 
is where the USGS quads have traditionally been used before.
    Now would I prefer to use better, newer data? Of course I 
would. Okay, however, you have to balance that with the benefit 
of the cost of the newer and better data, and is it better to 
spend it there or someplace else.
    Chairman Ney. I want to defer to my colleagues, but I want 
to come back to that cost question in a second. Mr. Pearce.
    Mr. Pearce. Thank you.
    If we were to pursue that line of thought, Mr. Edelman, we 
are in the process of spending a billion dollars; we have 
already spent maybe 550 million of it. Do we have to even do 
that cost-benefit ratio that you are talking about that USGS 
uses if we simply redid it more or less with more thorough 
technology?
    Mr. Edelman. Okay. The first counties that FEMA has 
performed are their highest risk counties. Typically, these are 
the high population counties. They are the ones that were 
ranked first. As they are working through the 5-year program, 
the lower risk counties are the ones that are being done later 
in the program.
    An evaluation would really need to be looked at to 
determine is the cost valid--
    Mr. Pearce. Well, my point is that we have got 450 million 
in unexpended funds. Mr. Bullock says he can do it for 280 
million for 60 percent of the country. My point is why are we 
going to proceed ahead if the data is somewhat unusable?
    Mr. Edelman. Okay. Now I had the privilege of meeting one 
of the engineers who performed the study for Great Britain. The 
engineering methods that they used there are not acceptable and 
do not meet FEMA's minimum guides and specifications.
    Mr. Pearce. USGS stuff meets--they are using USGS data.
    Mr. Edelman. Typically the cost of the topo data is just 
one small piece of an entire study. The topo data may run 
anywhere from 10 to 20 percent of the cost of the entire study. 
So just because you get new topo doesn't mean the cost ends 
there, and the procedures that were used in Great Britain are 
completely different than what the minimum standards FEMA has 
set for the industry in the United States.
    Mr. Pearce. Does FEMA reach its minimum standards in the 
United States?
    Mr. Edelman. Yes.
    Mr. Pearce. Why do the charts that Mr. Bullock showed there 
show a fairly large deviation on the USGS maps? Why?
    Mr. Edelman. What the USGS--what that is showing is that 
the age of the USGS topographic maps, just because data is old 
doesn't necessarily mean it is inaccurate. There were very--
there were a lot of different contractors--
    Mr. Pearce. I will go ahead and reclaim my time.
    Mr. Bullock, why don't you address the other side and save 
time for Mr. Jenkins? I would like for him to kind of weigh in 
on this.
    Mr. Bullock. I agree with Scott that the techniques used in 
the U.K. are different from what is typically used here, but 
the fundamental fact is they have a complete flood map for the 
entire country instead of just focusing on high risk, medium, 
or so forth, on a county by county. Floods do not obey county 
boundaries. You have to map by watersheds and stream, river 
courses, and so forth. And so they found a tremendous value in 
having a complete topographic map of the entire country that 
was collected near simultaneously, that is accurate, 
consistent, and calibrated, which we do not have here.
    Mr. Pearce. Mr. Jenkins, do you want to weigh in on this? 
And before you get right to the point, is this an accurate--
does this--this map kind of conveys a sense of disarray and 
chaos. Is that an accurate reflection?
    Mr. Jenkins. Well, it represents topographical data. It is 
not a representation of the accuracy or the age of flood maps. 
Some of the flood maps are newer than this data. So it is the 
topographical data, represents the age of the USGS 
topographical data, which is, as has been said, is one input 
into a flood map. It is not the only input. You will need, you 
know, hydrological data and so forth.
    One of the things that has been said here that is true is 
one of the reasons FEMA approaches things by counties is 
because that is where the governance structure is. The 
governance structure is not by watershed. It crosses 
watersheds. So in terms of being able to get--they also have to 
get buy-in from localities and so forth. The way you get buy-in 
is you have to go through what the governance structure is.
    It is true that there are places where counties have gone 
together to try to pool their resources and work with FEMA to 
map entire watersheds, but that is simply not the norm. It is 
not the average way in which they approach things, but it is 
certainly an option in the way in which they can approach 
things. The topographical data is one element, and it is 
certainly an important element. It is one of the--and the 
flatter the terrain, the more important it is that that be 
accurate because the smaller gradations affect the way that the 
water runs.
    So it is sort of a complex process in terms of how you put 
it together. But it is also true that, as I said in my oral 
statement, that you want the most accurate maps that you can 
get that are necessary to identify the floodplains for people, 
and the topographical data, good topographical data, is a key 
component of that.
    Mr. Pearce. Mr. Chairman, I see my time has elapsed. As we 
are dealing with the problem that governance is the problem in 
mapping, I am not sure that Mr. Jenkins is suggesting--I am not 
sure I would suggest it, but it sounds like a PATRIOT act for 
floodplains is needed.
    Chairman Ney. Mr. Fitzpatrick.
    Mr. Fitzpatrick. Mr. Jenkins, I want to follow up on a 
question Mr. Pearce was pursuing earlier about repetitive loss 
properties. You testified today that FEMA doesn't have the 
ability to control local building codes and local land 
development decisions.
    Mr. Jenkins. No, it does have the ability to do that, and 
that is the principal way in which it does that, and the other 
way is to buy out the property itself.
    Mr. Fitzpatrick. We talked a little bit about incentives to 
local governments. How about disincentives to building within 
the floodplain? Once flood insurance, FEMA comes in and maps a 
particular community, and that community then--and I have seen 
this happen in Pennsylvania communities--will go in--when I was 
county commissioner--buy out properties, elevate other 
properties while the local government was approving building 
permits for the empty lot next door. While we are buying one 
property and removing it, you know, a modular structure is 
being placed in the flood fringe or in the floodplain next 
door. And we contacted FEMA about that. Within FEMA, what--my 
understanding is FEMA can go in and basically tell a local 
government, we are going to take you out of the National Flood 
Insurance Program if you continue that. What is the experience 
of FEMA in actually pursuing that in policing their floodplains 
and actually coming down hard on local governments that 
violate.
    Mr. Jenkins. Well, you are absolutely correct. They can 
basically say, if you are not enforcing your codes, you know, 
the codes that you have to adapt once the floodplains are 
identified, you can be taken out of the program. But we haven't 
actually looked at the experience of how often they do that or 
what happens, you know, if a community is not enforcing or is 
inconsistently enforcing those regulations. So I don't really 
have a good sense of what the experience has actually been.
    Mr. Fitzpatrick. Are you aware of FEMA receiving complaints 
about local governments? This program costs us a lot of money.
    Mr. Jenkins. Very often they receive complaints simply by 
citizens saying, I can't believe they are letting Joe do this.
    Mr. Fitzpatrick. Exactly. But presently FEMA does not have 
a sort of strategy of coming down hard on local governments? 
Since this is costing us money, we don't have enough money to 
adequately map what we have in part because we are spending so 
much in bailing out properties that are just flooded on a 
repetitive basis.
    Mr. Jenkins. To tell you the truth, because we haven't 
really looked at this systematically, I really don't have a 
good sense of exactly how they approach this, what their 
strategy is, what the enforcement policy is. You get something 
like three strikes and you are out kind of approach, and we 
just haven't done enough work on that for me to give you a good 
answer.
    Mr. Fitzpatrick. Thank you.
    Chairman Ney. Thank you. Question: I want to get back to 
costs. Well, I want to get back, first of all, to the minimum 
standards and Great Britain. Now, if Intermap, and Mr. Edelman, 
you said also your company, Watershed Concepts, has worked with 
Intermap before on some mapping.
    If you or in conjunction with other companies have 
basically like the most up-to-date data, and if you showed what 
you showed us, the map of Great Britain, and that is state of 
the art, is that correct? Mr. Bullock.
    Mr. Bullock. Yes.
    Chairman Ney. So Great Britain's standards are less than 
ours? We are requiring more state of the art? Or can you 
comment on the minimum standards required by the United States?
    Mr. Bullock. Well, I would say on a nationwide basis they 
have the most accurate topography and the most accurate flood 
maps on a nationwide basis.
    Chairman Ney. Great Britain?
    Mr. Bullock. Yes. Here in the United States when we do 
detail studies, that accuracy can very well surpass what they 
have on a national, a nationwide. But they saw the value of 
just studying certain communities and doing lesser studies for 
the rest of the country was not the right approach for them. 
And that is the approach they have taken.
    And I would like to add one more point. Mr. Williams made a 
very important comment earlier when he said that to take the 
USGS data, whether it be 40 years old or 25 years old, it still 
requires efforts in terms of digitizing or correcting blunders 
or whatever in terms of engineering work. And in many cases 
that cost can be higher than the cost of using new technology 
to collect new data that is already in a digital form.
    Chairman Ney. I want to get back to--Mr. Pearce has asked I 
think some very good questions. I want to get back to the 
question he had asked earlier about the proprietary rights. You 
had answered that question. I want to ask a question of GAO--
actually not, Mr. Bullock. The question Mr. Pearce had asked 
was about the proprietary rights, and I understand from Mr. 
Bullock that his company people could, you know, click in and 
buy forever or until it is updated again for X amount of 
dollars. And I think the comparison was like 12,000 community, 
for about 5,000 or something. And asking GAO, has anybody 
looked at that? Because right away when the question was asked, 
it was like, okay, well, yours is not available, although FEMA 
would say use your mapping, but it is only available to 
communities if they pay a certain amount of money for the 
proprietary rights, I guess, or copyright is the right word. 
Having said that, rather than communities developing their own 
whole plans of spending all this money or county spending 
money, has anybody--this is a question for GAO--has anybody 
looked at what this company or companies can do, and maybe it 
is cheaper at the end of the day if we would utilize that and 
people get the copyrighted material through incentives or if we 
save a lot of money through the United States Government 
through incentives? Has anybody looked at that, how they 
copyright it, and utilizing it, and would it be maybe cheaper 
at the end of the day, or maybe it wouldn't or maybe it would 
be a wash. Has anybody looked at that versus recreating the 
wheel in all these counties?
    Mr. Jenkins. Not that I know of. I don't know that anybody 
has looked at that specifically and the actual costs. The 
information that Intermap provided to us is that they would 
provide FEMA a national subscription for $15 million, which is 
about $4.90 a square mile.
    Chairman Ney. Could a community buy the maps and then FEMA 
utilize them? Would that be possible, a community would do 
that?
    Mr. Jenkins. It might. Acually it depends on how, you know, 
the Intermap prices it. But as they point out in the material 
they provided to us, it is usually less expensive to provide 
it--to purchase it for large areas. And so it may be less 
expensive for FEMA to purchase it and then--if this information 
is correct than for localities to purchase it for small pieces.
    Chairman Ney. Obviously, that would be a lot of numbers 
scratched out here, et cetera. I am trying to get a concept has 
anybody looked at the cost, and you are answering no. But Mr. 
Williams, do you have any comment on all of this? Or anybody 
else, frankly, on the panel. But start with Mr. Williams. If we 
would look at that type of concept of communities, you know, 
would it be worth it to look at the costs of communities 
clicking in and purchasing the upgraded or state of the art 
material?
    Mr. Williams. I think I have one major comment in regard to 
the licensing issue. We have looked at it closely in our 
department. We don't have a problem with the license. It is the 
way software is sold. It is the way songs and movies are now 
being sold. So a particular license, as long as everybody 
understands what the license is about and how it limits it, we 
would be perfectly happy with it. In fact, we like Intermap's 
licensing agreement because it allows anybody in our department 
to use it for any purpose, even though it would be originally 
purchased for floodplain mapping.
    Having said that, and to expound upon what I earlier said 
to Ms. Waters, I think a nationwide topographic program would 
be important, and it would be the most efficient way to handle 
this. However, there are areas where LIDAR, or advanced 
photogrammetric techniques, are perhaps more useful than the 
IFSAR technology. There are vast areas of this country where 
the IFSAR technology is important. And we need to look at both 
limitations on the technology, vegetation, for instance, as 
well as the necessary accuracy. For example, in Nebraska we 
need to achieve very high accuracy in our very flat areas next 
to the Platte River. So those are all things that come into 
this. But a nationwide strategy would be very useful.
    Chairman Ney. Anyone else?
    Mr. Bullock. Mr. Chairman, if I might just add, in regard 
to the issue of data licensing, the National Academy of 
Sciences generated a report last year in regard to licensing of 
geospatial data, and we would be happy to forward a copy to the 
committee to look at that. But in summary, they found that data 
licensing can be beneficial, reducing costs to the users. It 
doesn't work for everybody, but it can be a very beneficial 
approach to getting accurate geospatial data out there at a 
lower cost.
    Chairman Ney. My time has expired, and Mr. Pearce has 
another question. I will be glad to entertain it. Take a 
generic question to ask of anybody on the panel. I think we 
have got a lot of valuable information here. From what I am 
hearing it is not all apples and apples and oranges and 
oranges. There are certain technologies used for certain 
things, and I think I hear basically everybody agree to that, 
and other technologies are appropriate.
    Where should the next step be for this committee getting 
this information? Does anybody have an idea what the next step 
would be in interacting with FEMA or with the groups and the 
people that are concerned about this issue? Anybody have any 
ideas on that?
    Mr. Edelman. What I have witnessed FEMA doing in the past 
is when they are about to go into a study, they meet with the 
local officials. They meet with the local people. Before they 
decide how they are going to do anything, they sit down and 
they have a detailed scoping meeting. At that point in time, 
that community tells them what their needs are. Those needs are 
prioritized, and based on that the scope of work done is 
tailored towards that individual community to work going 
through there. So that is the time to buy the information, when 
you need it.
    For instance, we have some counties in the United States 
that had a population of 2,000 people in 1980. It has dropped 
to 1,500 people in 1990. Okay? The cost of doing the study in 
that particular county would probably exceed FEMA just buying 
flood insurance policies for everybody who remained within that 
county. Okay? So there is a balance that you have to have 
between utilizing the best data. And as an engineer, I would 
always want to use the best data available, but you have to 
balance that with where would the information be used or the 
dollars or the resources be put to the best use to have the 
biggest impact on the Nation.
    Whereas, a lot of talk has been talked about Great Britain 
here, the technology that is used by Great Britain. I would 
probably submit that FEMA's program is superior to Great 
Britain's because in all the medium and high risk zone areas, 
the information that was developed in Great Britain would not 
meet standard. The elevations would have a higher degree of 
uncertainty than they do in the United States.
    Mr. Bullock. I would like to offer that I believe that a 
national strategy is needed for collecting a new and accurate 
topographic base layer for the entire country, just as was done 
in Great Britain, which would benefit FEMA and other Federal 
agencies.
    As a company, we are going out, and we are doing it. We are 
doing it right now. We are flying in Texas today, and in the 
next 4 or 5 years we will have a topographic database for the 
entire country.
    Chairman Ney. Let me ask you something about that. Are you 
doing that on your own, or is this another branch of the 
Government?
    Mr. Bullock. We are doing it based on our investor funds 
just like we did in Great Britain. We will create this 
database, and then we license the data to multiple users. So 
far we have three U.S. Federal Government agencies that have 
indicated they are going to use this data, and it is somewhat 
ironic that we don't have FEMA on board for this where they 
could directly benefit more than just about any of the other 
Federal agencies.
    Chairman Ney. So what you are saying is within 4 years you 
are going to be sitting here and you will say here it is. If 
you want to click in and pay the fee you can have it. And if 
the United States Government--well, FEMA I should say--if FEMA 
has not caught up to pace, it is irrelevant; it will be here?
    Mr. Bullock. It will be here. And if FEMA goes in the 
present course, doing it county by county, then there is a very 
good risk that they won't be able to utilize this data to the 
extent that they could.
    We are going to have the entire State of California done in 
about 2 months, mapped to one meter vertical accuracy, and I 
would believe that for much of that State that is going to be 
superior to the USGS data that is available and may be used for 
some of these flood map programs.
    Chairman Ney. Gentleman from New Mexico.
    Mr. Pearce. Mr. Bullock, do you have any comment when Mr. 
Edelman says that your standards would not be suitable for the 
high and medium risk areas?
    Mr. Bullock. Well, he is the expert. I focus on the data. 
He does the engineering, and he is correct that there is a 
difference in terms of the engineering approach that was used 
in Britain and what is being used here in the U.S. Remember, in 
Britain this was done by Norwich Union. It was not a Government 
program, and so they did what they felt was the appropriate 
level of engineering to meet the application. And it was still 
far superior than the Government provided flood maps that 
existed in Britain. But the same techniques that Mr. Edelman 
uses here under FEMA of course can be adopted and used on this 
data just like they did in the pilot project in Region 6, and I 
think he would say that that produces very good results.
    So it is not a failing in the data. It is just a difference 
in technical approaches that was used in Britain versus in the 
U.S.
    Mr. Pearce. Mr. Jenkins, you had talked about the costs of 
some of the mapping and some of the relative costs. Do you know 
if the FEMA process ever counts the opportunities lost? For 
instance, there is about $20 million worth of development back 
in the community of Carlsbad that I was talking about that was 
delayed for 10 or 15 years. And when Mr. Edelman suggests that 
we need to prioritize and get to those low population areas 
last, is there any way to assess the cost to communities when 
are drawn incorrectly and the cost to not be able to develop?
    And by the way, I have lived my whole life in that area. 
One bank of the river was developed and the other one wasn't. 
And when they got the map somewhat redrawn last year or the 
year before, the development was just blowing down the one 
side; it has never been developed.
    Mr. Jenkins. I would say that in what we looked at, we 
certainly didn't look the sort of opportunity costs lost. They 
looked at cost of--at the time they started the process, what 
did they think they would be gathering and what it would cost 
to do that. So they weren't really looking at, if you will, 
what you are talking about, which is the cost of delays and 
delays to the community. So not to my knowledge was that taken 
into account.
    Mr. Pearce. Thank you, Mr. Chairman.
    Chairman Ney. Yes, Mr. Williams?
    Mr. Williams. I wanted to go back and address your question 
of what to do about this topographic situation. I think that it 
is important to recognize at this point that the $1 billion for 
Map Mod is not going to be enough, that we need the 3 billion. 
If we are just going to spend 1 billion, of which we have 
another 450 million left, then we might as well blindly carry 
on as we have been carrying on. But if we know we have got 
another 5 to 10 years at similar funding levels so we can do 
the whole thing right, that is the point at which we need to 
create a national strategy.
    I would suggest that we direct FEMA to come up with a cost 
and strategy, and I think their way of doing it would be to put 
together a committee with their national service provider, 
State and local officials, probably team up with other Federal 
agencies such as the USGS. We would need a topographic 
inventory. We need to know what data is out there, what exists, 
come up with a needs assessment and a strategy to deal with 
this perhaps as soon as the 2006 funding.
    Mr. Pearce. Mr. Williams, with your permission, you said we 
need to do this right. If you were to evaluate from your 
perspective the $550 million worth of investment so far in 
whatever 1,000 or 2,000 areas that were remapped, on a scale of 
0 to 100, what is the accuracy and the completeness of the data 
in those remapped areas, of those digitized areas where we were 
taking data?
    Mr. Williams. I would give it about a 75 percent effort to 
date.
    Mr. Pearce. So those are areas that are pretty well 
completed. You are saying with more money we can make it, but 
we assume we have reached the highest level of capacity that we 
can and you are encouraging us to spend another $2 billion on 
top of 1, and we are reaching 75 percent accuracy?
    I am not sure I want to reinvest. Thank you.
    Mr. Williams. I would like to emphasize that FEMA's 
guidelines and specifications create accurate maps. My big 
fear, as was stated earlier, is that not all the reaches that 
should be studied are being studied, and that is the problem.
    Mr. Pearce. You are sure it is the process. Whether or not 
their standards are set high enough is not the complete 
question. Whether or not they thoroughly and adequately address 
all of the areas--and it is still a question of process and 
still a question if you invest 1 billion and you get 75 percent 
performance, you still have some loss. And if you get 3 
billion, you have proportionately more loss. So I don't know. 
That 75 percent seems a very low rating score for me.
    Thanks.
    Mr. Williams. I would like to emphasize that I think Map 
Mod is a fantastic program, and it has done an awful lot of 
good.
    Chairman Ney. I want to thank you very much. I think this 
has been an extremely informative panel on a very important 
issue in the country, and we want to take it from here somehow, 
maybe looking at price costs, working with GAO, or working with 
the people that are interested in this issue.
    So I want to thank you and thank the members for your time.
    The Chair notes that some members may have additional 
questions for this panel which they may want to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions to these 
witnesses and to place their response in the record.
    The hearing is adjourned. Thank you.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                             July 12, 2005 


[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 


</pre></body></html>
